<html>
<title> - SETTING NEW COURSES FOR POLAR WEATHER SATELLITES AND EARTH OBSERVATIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                 SETTING NEW COURSES FOR POLAR WEATHER
                   SATELLITES AND EARTH OBSERVATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 29, 2010

                               __________

                           Serial No. 111-102

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
57-600                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b2d5c2ddf2d1c7c1c6dad7dec29cd1dddf9c">[email&#160;protected]</a>  


                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

                HON. BRAD MILLER, North Carolina, Chair
STEVEN R. ROTHMAN, New Jersey        PAUL C. BROUN, Georgia
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
CHARLES A. WILSON, Ohio              VACANCY
KATHY DAHLKEMPER, Pennsylvania         
ALAN GRAYSON, Florida                    
BART GORDON, Tennessee               RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
            JAMES PAUL Democratic Professional Staff Member
            TOM HAMMOND Republican Professional Staff Member


                            C O N T E N T S

                             June 29, 2010

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................    13
    Written Statement............................................    14

Statement by Representative Paul C. Broun, Ranking Minority 
  Member, Subcommittee on Investigations and Oversight, Committee 
  on Science and Technology, U.S. House of Representatives.......    15
    Written Statement............................................    16

                               Witnesses:

Hon. Sherburne B. ``Shere'' Abbott, Associate Director, Energy 
  and Environment Division, Office of Science and Technology 
  Policy
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    27

Ms. Mary M. Glackin, Deputy Under Secretary for Oceans and 
  Atmosphere, National Oceanic and Atmospheric Administration
    Oral Statement...............................................    27
    Written Statement............................................    29
    Biography....................................................    34

Mr. Christopher J. Scolese, Associate Administrator, National 
  Aeronautics and Space Administration
    Oral Statement...............................................    35
    Written Statement............................................    36
    Biography....................................................    38

Mr. Gil Klinger, Director, Space and Intelligence Office, Under 
  Secretary of Defense for Acquisition, Technology, and 
  Logistics, Department of Defense
    Oral Statement...............................................    39
    Written Statement............................................    40
    Biography....................................................    43

Mr. David A. Powner, Director, Information Technology Management 
  Issues, Government Accountability Office
    Oral Statement...............................................    44
    Written Statement............................................    46
    Biography....................................................    64

              Appendix: Additional Material for the Record

GAO Report, Polar-Orbiting Environmental Satellites: Agencies 
  Must Act Quickly to Address Risks That Jeopardize the 
  Continuity of Weather and Climate Data, May 2010: GAO-10-558...    78

GAO Report, Environmental Satellites: Strategy Needed to Sustain 
  Critical Climate and Space Weather Measurements, April 2010: 
  GAO-10-456.....................................................   126


SETTING NEW COURSES FOR POLAR WEATHER SATELLITES AND EARTH OBSERVATIONS

                              ----------                              


                         TUESDAY, JUNE 29, 2010

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brad 
Miller [Chairman of the Subcommittee] presiding.
                            hearing charter

                     U.S. HOUSE OF REPRESENTATIVES

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

            Setting New Courses for Polar Weather Satellites

                         and Earth Observations

                         tuesday, june 29, 2010
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    Since 2003, there have been seven hearings before the Science and 
Technology Committee or its subcommittees on the subject of the 
National Polar-Orbiting Operational Environmental Satellite System 
(NPOESS) program. Established in 1994, the program was intended to 
design, develop, construct and launch satellites into polar orbits so 
that the National Oceanic and Atmospheric Administration (NOAA) and 
Department of Defense (DOD) would continue to receive daily data 
necessary for civilian and military weather forecasting needs. In the 
2003 hearing, the life-cycle cost for NPOESS stated in the March 2003 
budget request was $6.1 billion, with the first of six satellites 
expected to be launched in 2009. In last year's hearing, the life-cycle 
cost estimate had grown to at least $14.9 billion, was intended to 
purchase only four satellites with a first launch pushed back to 2014.
    The key reasons for this situation include major performance 
problems and schedule delays for the primary imaging instrument, 
spawning cost overruns, all tied to a management structure that delayed 
rather than fostered decisions at critical moments. In 2005, the growth 
in cost estimates exceeded statutory limits triggering a Nunn-McCurdy 
\1\ recertification, the elimination of two satellites and removal or 
downgrading of sensor capabilities--decisions driven by the Pentagon. 
Last year, witnesses testified before this Subcommittee that program 
leadership had deteriorated to the point that only White House 
intervention would assure that there would ever be any NPOESS 
satellites at all.
---------------------------------------------------------------------------
    \1\ As set forth in the Memorandum of Agreement governing the 
NPOESS program, the Air Force managed the acquisition of the 
satellites. NPOESS was therefore subject to Department of Defense 
regulations for major defense programs. When such programs exceed 
approved baseline costs by more than 25 percent, recertification is 
required by 10 U.S.C. 2433 et seq.
---------------------------------------------------------------------------
    Rather than trying to satisfy the needs of three agencies with one 
satellite design, the Office of Science and Technology Policy (OSTP) 
\2\ instructed that the program be cut in two. Satellites flying in 
orbits to collect early-morning observations would be developed and 
launched by DOD. NOAA would do the same to collect observations in the 
afternoon. NOAA would operate all the satellites while in orbit,\3\ and 
would manage the common data system to receive, store and share all 
data. These changes will be the focus of Administration witness 
testimony.
---------------------------------------------------------------------------
    \2\ In concert with the Office of Management and Budget and the 
National Security Council.
    \3\ NOAA took on operating responsibility for Defense 
Meteorological Satellite Program (DMSP) satellites in 1998.
---------------------------------------------------------------------------
    From the outset of the Committee's oversight,\4\ the Government 
Accountability Office (GAO) has delivered valuable insight on the 
status of the polar satellite program. Its reports have documented the 
steady deterioration in the program's condition. Today's hearing builds 
off two reports that GAO is testifying to today. The first focuses 
specifically on the decisions surrounding the NPOESS program and how 
the program is progressing. The second examines the unfinished attempts 
to restore important sensor capabilities, many of which were jettisoned 
in the Nunn-McCurdy program restructuring. Without these sensors, or 
similar capabilities, our ability to strengthen our Earth observation 
networks as a whole will be compromised.
---------------------------------------------------------------------------
    \4\ Mr. Dave Powner, GAO's witness, has testified at five of the 
seven previous hearings.
---------------------------------------------------------------------------
    Before turning to the issues raised by GAO in their two new 
reports, it is useful to get a perspective on how the cost and schedule 
on NPOESS have evolved (table from GAO).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


GAO's NPOESS Report_Leadership Paralysis

    A dominant theme in the Committee's hearings of the last three 
years, and a bipartisan concern, was the ineffectiveness of the chief 
leadership arm, the so-called Executive Committee (ExCom).\5\ 
Particularly revealing was the fact that it took more than a year to 
agree on documents needed to implement the changes from the Nunn-
McCurdy process.
---------------------------------------------------------------------------
    \5\ The Committee consisted of the NOAA and NASA Administrators, 
and the Under Secretary of Defense for Acquisition, Technology and 
Logistics, who normally delegated responsibility for ExCom attendance 
to the Secretary of the Air Force.
---------------------------------------------------------------------------
    By June of last year, this leadership dysfunction was so pronounced 
that both GAO and an independent review team (IRT) commissioned by the 
ExCom concluded that the program could not succeed if it was left in 
place. In the Subcommittee's previous hearing GAO's Mr. Powner 
testified that the ExCom ``. . . has not effectively fulfilled its 
responsibilities and does not have the membership and leadership it 
needs to effectively or efficiently oversee and direct the NPOESS 
program.'' \6\ The Independent Review Team report stated, ``The IRT 
believes that this program will not survive if this particular problem 
is not addressed immediately'' [emphasis added] and that the problems 
``. . . can only be resolved at the White House level.'' \7\ The IRT 
recommended that the program, in its entirety, be assigned to NOAA or 
DOD; the team felt that NOAA was the better choice given that the 
agency could not execute its fundamental missions without these 
satellites.
---------------------------------------------------------------------------
    \6\ U.S. Congress. House. Committee on Science and Technology. 
Continuing Independent Assessment of the National Polar-Orbiting 
Operational Environmental Satellite System. Hearing before the 
Subcommittee on Investigations and Oversight (Washington: Government 
Printing Office). Serial 111-36. June 17, 2009; p. 19.
    \7\ Ibid.; pp. 120, 125.
---------------------------------------------------------------------------
    A task force to devise a solution, chaired by OSTP's Associate 
Director Shere Abbott, began work last August. In October, Chairman 
Gordon and Mr. Miller wrote OSTP Director John Holdren to advocate for 
the IRT's proposed solution assigning program responsibility to NOAA. 
With decisions relating to NOAA's Fiscal Year (FY) 2011 budget request 
looming, the letter also urged the task force to expedite its work.
    On January 5, the Office of Management and Budget (OMB) provided 
direction on restructuring to the agencies.\8\ The decision became 
public with the release of a White House fact sheet on February 1 in 
conjunction with the release of the President's budget. Key points from 
the fact sheet were:
---------------------------------------------------------------------------
    \8\ Restructure of the NPOESS Program. Memorandum from the Director 
of OSTP, Director of OMB and the National Security Advisor to the Under 
Secretary of Defense for Acquisition, Technology and Logistics, the 
Under Secretary of Commerce for Oceans and Atmosphere and the 
Administrator of NASA, March 2, 2010.

        <bullet>  ``. . . NOAA and NASA [the National Aeronautics and 
        Space Administration] will take primary responsibility for the 
        afternoon orbit, and DOD will take primary responsibility for 
        the morning orbit. The agencies will continue to partner in 
        those areas that have been successful in the past, such as a 
        shared ground system. The restructured programs will also 
        eliminate the NPOESS tri-agency structure that that has made 
        management and oversight difficult, contributing to the poor 
---------------------------------------------------------------------------
        performance of the program. [emphasis added]

        <bullet>  ``NOAA and the Air Force have already begun to move 
        into a transition period during which the current joint 
        procurement will end. A detailed plan for this transition 
        period will be available in a few weeks. [emphasis added]

        <bullet>  ``NASA's role in the restructured program will be 
        modeled after the procurement structure of the successful POES 
        and GOES programs, where NASA and NOAA have a long and 
        effective partnership. Work is proceeding rapidly with NOAA to 
        establish a JPSS program at NASA's Goddard Space Flight Center 
        (GSFC). [emphasis added]

        <bullet>  ``. . . NOAA and NASA will strive to ensure that all 
        current NPOESS requirements are met on the most rapid 
        practicable schedule without reducing system capabilities.

        <bullet>  ``. . . Cost-estimates will be produced at or close 
        to the 80% confidence level.

        <bullet>  ``DOD remains committed to a partnership with NOAA in 
        preserving the Nation's weather and climate sensing capability. 
        For the morning orbit, the current DOD plan for deploying DMSP 
        satellites ensures continued weather observation capability. 
        The availability of DMSP satellites supports a short analysis 
        (in cooperation with the partner agencies) of DOD requirements 
        for the morning orbit and solutions with the start of a 
        restructured program in the 4th quarter of fiscal year 2011. 
        While this study is being conducted, DOD will fully support 
        NOAA's needs to ensure continuity of data in the afternoon 
        orbit by transitioning appropriate and relevant activities from 
        the current NPOESS effort. [emphasis added]

        <bullet>  ``We expect much of the work being conducted by 
        Northrop-Grumman and their subcontracts will be critical to 
        ensuring continuity of weather observation in the afternoon 
        orbit. DOD will work closely with the civil partners to ensure 
        the relevant efforts continue productively and efficiently, and 
        ensure the requirements of the national weather and climate 
        communities are taken into consideration in building the 
        resultant program for the morning orbit.''

    OSTP, on March 12, described the implementation plan for the new 
program. The requirements for data to be collected did not change. NASA 
and NOAA were to continue preparing the NPOESS Preparatory Program 
(NPP) satellite for launch in 2011 to avoid losing data coverage in the 
afternoon. NOAA will reimburse NASA to manage the JPSS program at the 
Goddard Space Flight Center, as recommended by the IRT report discussed 
earlier. The Air Force will assume the responsibility for managing its 
program with the management office at Space and Missile Systems Center 
at the Los Angeles Air Force Base. In an Acquisition Decision 
Memorandum issued on March 17, the NPOESS Integrated Program Office 
(IPO) was ordered to facilitate the necessary actions.

GAO's NPOESS Report_Early Transition issues

            A. NPP Satellite Status
    Preparation and launch of the NPP satellite is the immediate 
critical item in the polar satellite program. GAO notes the delivery of 
the long-awaited VIIRS instrument and its integration on the satellite. 
The report also notes that the Cross-Track Infrared Sounder (CrIS) 
suffered its own technical problems late in development, involving 
damage to the instruments structure during vibration testing and 
questionable circuit card manufacturing. Resolving the issues and 
additional testing had the effect of delaying the NPP launch yet again, 
to September 2011. NOAA will testify, however, that CrIS has met its 
revised delivery date.
    NPP was never intended to be an operational satellite. Rather it 
was more of a ``proof of concept'' satellite that would allow NOAA time 
to practice incorporating data collected by the new sensors into its 
operational activities and to cross-compare sensor performance against 
those on board existing satellites. However, last year, when the 
continuing sensor trouble led to another delay in the predicted launch 
date for the first NPOESS satellite, the program decided to compensate 
by using the NPP as a quasi-operational stopgap. As GAO notes, NPP was 
not designed to use the full NPOESS ground system and so will not 
approach the improvements in data delivery time that were expected from 
the next-generation satellites. Further, only NOAA and the Air Force 
weather center will have direct NPP data readouts; the two Navy centers 
without such capability will find that NPP data may not arrive in time 
to be used in their operations. Both DOD and NOAA are seeking fixes for 
this issue.

            B. Initial Planning

    As GAO notes, the transition is moving at different rates within 
DOD and NASA. NOAA indicated to GAO that transition activities would 
begin in July and be complete by September. NOAA received approval from 
the Committee on Appropriations for an April request to reprogram $73.8 
million in NPOESS funds to fund establishment of the Goddard office and 
other transition activities. GAO reported that the DOD was expecting to 
complete a requirements review and determine whether to employ the 
NPOESS spacecraft by the end of June 2010, then make instrument 
selections by October 2010. The target for starting the program was FY 
2013.
    GAO included the following table to compare the new program with 
NPOESS:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Based on this information, GAO projects that the final life-cycle 
cost for the new polar satellite constellation will be more than the 
current approved spending baseline for the NPOESS program. Based on 
previous experience, launch delays can be expected. Decisions are still 
lacking on which sensors will fly and the platform they will be carried 
on in orbit. GAO recommends that the Departments of Commerce and 
Defense seek expedited decisions on these issues.
    Some of the unknown items have been addressed by decisions made 
last week by DOD and NOAA. Mr. Klinger should testify about the 
Acquisition Decision Memorandum (ADM) subsequently issued on June 22. 
In it, DOD indicates it expects the newly-christened Defense Weather 
Satellite System (DWSS) to launch its first satellite in 2018. DOD 
intends to also use the VIIRS sensor as its imager, and the satellite 
will carry the Space Environment Monitor originally intended for 
NPOESS. However, more information was requested on the anticipated 
microwave sounding instrument and its selection was postponed until 
August 2010.
    The other major decision that was deferred until August concerned 
the spacecraft ``bus'' to fly in the morning orbit. The ADM states, 
``Implement the above actions to maximize use of the Government's 
investment in NPOESS, and in a manner that offers maximum opportunities 
for collaboration with the NOAA JPSS program.'' \9\ A major debate 
between DOD and NOAA at this point is whether both agencies should use 
the spacecraft design originally intended for NPOESS. DOD's platform 
choice is likely affected by the final configuration of the microwave 
sounder it will choose.\10\ For NOAA, on the other hand, the issue was 
time. Having no spare satellites in ground storage,\11\ NOAA is 
focusing on avoiding schedule delays.
---------------------------------------------------------------------------
    \9\ Ashton B. Carter. Acquisition Decision Memorandum (ADM) for 
Department of Defense responsibilities under the restructure of the 
National Polar-Orbiting Operational Environmental Satellite System 
(NPOESS). June 22, 2010; p. 1.
    \10\ The original NPOESS spacecraft had to be increased in size in 
order to accommodate growth in the Conical Microwave Imaging Sounder, 
an instrument that was later removed from the spacecraft during the 
Nunn-McCurdy restructuring due to design challenges.
    \11\ The last current model, NOAA-19, has been in on-orbit storage 
since its launch February 6, 2009.
---------------------------------------------------------------------------
    This time pressure can be seen in NOAA's decision on June 23 to 
obtain a ``clone'' of the NPP satellite to serve as JPSS-1. Ms. Glackin 
should testify that this satellite will be purchased from Ball 
Corporation, NASA's contractor on the NPP satellite, on a sole-source 
basis. The instruments will be supplied by NASA, and will be much the 
same as those aboard NPP. However, NOAA's decision has the effect of 
reopening the debate about how to maintain continuity in the records of 
solar energy incidence, a critical climate variable, because the new 
satellite will not have space for the Total Solar Irradiance Sensor 
(see the discussion below in the discussion of GAO's second report). 
International obligations to maintain search-and-rescue communication 
transponders may also be affected.
    With this decision, NOAA hopes to be able to maintain an 
opportunity to launch JPSS-1 in 2014. As GAO notes, NPP only has a 
five-year design life, and NOAA's current plan envisions a 2015 launch 
for JPSS-1. Assuming that timeline, adding in the time needed to bring 
the new satellite into service, NPP might well fail before JPSS-1 is 
fully operational.

            C. The Funding Squeeze

    The March 12 implementation plan lays out an anticipated funding 
profile. It is consistent with cost numbers GAO quotes: $11.929 billion 
for NOAA through the end of 2024; $5 billion for DOD through the end of 
FY 2015:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    According to the plan, the FY 2010 funds are intended to maintain 
progress toward an NPP launch, to fund the transition and to initiate 
the purchase of the JPSS spacecraft bus. As noted earlier, NOAA has 
reprogrammed $74 million into a new JPSS appropriation account. DOD 
will not change its requests for FY 2010 and FY 2011 funds to minimize 
problems in the transition; changes in the later years await final DWSS 
definition.
    GAO notes that DOD is operating under Congressional restrictions in 
the use of its funding, which limited FY 2010 funds available to the 
Air Force until the submission of a strategy and implementation 
plan.\12\ The March submission fulfilled those conditions, although GAO 
expresses concern that funding recessions might still force termination 
of the NPOESS contract by the end of September. So far the funds remain 
available. However, the House Armed Services Committee, dissatisfied 
with DOD's somewhat vague transition plan, proposes only $25.5 million 
for FY 2011.\13\ According to the June 22 ADM, the August meeting is to 
consider the ``schedule, estimated costs, and risks to a successful 
launch and deployment of the capability in FY 2018,'' and develop a 
rough-order-of-magnitude'' cost estimate.
---------------------------------------------------------------------------
    \12\ Sec. 913, Public Law 111-884; October 28, 2009.
    \13\ U.S. Congress. House. Committee on Armed Services. Report to 
Accompany H.R. 5136, the National Defense Authorization Act for Fiscal 
Year 2011 (Washington: Government Printing Office). H. Rpt. 111-491. 
May 21, 2010; p. 179.
---------------------------------------------------------------------------
    With the program changes, the agencies will submit separate funding 
requests in the future. NPOESS operated under a directive from the 
Appropriations Committee that both agencies contribute equally to the 
program. With the new JPSS/DWSS, NOAA will likely submit requests 
higher than those of DOD, reflecting the fact that NOAA is responsible 
for the ground system. NOAA's decision to prepare its requests with 
more conservative assumptions, thus leading to higher confidence that 
it will more closely approximate actual spending, will also play a 
role. This is likely to be small comfort to appropriators already 
pressed to reduce spending.

            D. The Northrop Grumman Contract

    Central to the funding squeeze, GAO says, is a requirement in the 
NPOESS prime contract awarded to the Northrop Grumman Corporation in 
2002. According to the report, the contract requires full funding of 
termination liability (i.e., the penalty to be paid by the government 
if it decides to end the contract) in the current year budget. NOAA and 
DOD are carefully watching expenditures to assure that FY 2010 funds 
would be sufficient to pay an estimated $84 million in such costs (the 
agencies have agreed they share the liability equally).
    At the rate of spending in the NPOESS program, the agencies would 
have been forced to bring the program to a halt in August to have $84 
million available, according to GAO. In April, steps began to ``slow 
down work on all development activities so that work could continue 
through the end of the fiscal year.'' The risk therefore remains that, 
if the agencies misjudge fund management, there could be an immediate 
impact on NPP preparations or the transition might come to a halt.
    Northrop also has keen interest in the outcome of the agency debate 
on bus options for their satellites. Despite NOAA's decision to develop 
JPSS-1 using the NPP bus, there is still the possibility that the DOD 
satellites and NOAA's JPSS-2 could be using Northrop's NPOESS bus or a 
variant thereof. The government's decision on what buses it will buy 
will do much to determine its answer to Northrop's basic question: how 
much we will participate in the new program?

GAO's NPOESS Report_Maintaining Direction

    Looking at the history of NPOESS and similar program, GAO cites 
other issues that may prove problematic as the agencies proceed to 
organize their respective programs.

            A. Negotiating Change

    Northrop Grumman's contract includes the responsibility for 
managing the subcontractors producing the various instruments. In the 
new program, each of these subcontracts will be transferred to NASA. 
There will also be changes resulting from the final choices on the 
satellite buses. Program restructuring also entails reworking budget 
and schedule plans, a process which took months to complete after the 
Nunn-McCurdy decisions in 2006. GAO warns that there may be similar 
problems in this transition. Indeed, some of these negotiations cannot 
even begin until the new program offices are in place or until 
decisions like those on the microwave sounder are finalized.

            B. NASA's Increased Responsibilities

    In the NPOESS program, NASA was distinctly a junior partner. For 
JPSS, it will return to its more traditional role as NOAA's technical 
support arm. Ms. Glackin and Mr. Scolese will refer to the long history 
the two agencies share, from the original Television Infrared 
Observation Satellite of 1960 to the current Geostationary Operational 
Environmental Satellite (GOES) program now underway.
    GAO points out, however, that NASA procurement remains on its list 
of high-risk concerns. It warns that unless NOAA establishes a strong 
system for obtaining information from and providing direction to NASA, 
there is a possibility for replaying the unhappy example of the GOES I-
M program.\14\ Simply shifting program elements to NASA, GAO warns, is 
not a guarantee problems will no longer occur.
---------------------------------------------------------------------------
    \14\ Government Accountability Office. WEATHER SATELLITES: Action 
Needed to Resolve Status of the U.S. Geostationary Satellite Program. 
NSIAD-91-252. July 24, 1991.

---------------------------------------------------------------------------
            C. Avoiding the Brain Drain

    Finding qualified people capable of managing complex technical 
development programs is difficult for NOAA, NASA and DOD. Having to 
staff the management offices needed to winnow the valuable elements of 
the NPOESS program while gearing up its successors will pose challenges 
to the agencies' human resource personnel. GAO states that the existing 
Integrated Program Office staff, beset with turmoil and uncertainty, 
has been leaving or preparing to do so. Steps should be underway to 
prevent hard-earned experience from slipping out the door.

            D. Preserving Cooperation

    Even with the divergence of procurement responsibility, there are 
still areas where the JPSS and DWSS staffs will continue to cooperate, 
says GAO. In managing the data system, DOD and NOAA will have to assure 
that cooperation on transmission protocols and formatting is preserved. 
Instrument selection must consider the full spectrum of agency needs. 
Preserving the process for requirements development would be 
beneficial.

GAO's Earth Observation Strategy Report

            A. Preserving Climate and Space Weather Continuity

    When the NPOESS program underwent restructuring in 2006 after its 
Nunn-McCurdy recertification, the decision was made to support only 
those components that contributed to weather observations. Accordingly, 
a set of sensors intended for monitoring climate parameters was 
removed. Additionally, improved versions of instruments designed to 
expand the ability to monitor emissions from solar activity were 
canceled in favor of flying copies of the existing instruments.
    At a time where concern about climate change had real political and 
economic consequences, the loss of the climate sensors threatened to 
disrupt the ability to answer a pressing issue--which changes were the 
result of human actions, and which were caused naturally? Doing so 
requires technology that can discriminate between small differences in 
temperature and other conditions. Such data must be collected for 
decades or longer. Without the NPOESS sensors, the interruptions in the 
data records would make it difficult if not impossible to properly 
identify climate trends.
    Dr. John Marburger, Dr. Holdren's predecessor at OSTP, asked NASA 
and NOAA in June 2006 to find alternatives for putting the climate 
instruments into service.\15\ As a result of that effort, the Total 
Solar Irradiance Sensor (TSIS) was identified as top priority, which 
measured the amount of energy the Sun was providing to the Earth. As 
this represents the major source of energy powering the Earth's 
physical, chemical and biological systems, precise knowledge of the 
amounts arriving and the changes in that amount over time is 
fundamental to climate science. Second priority went to the Earth 
Radiation Budget Sensor (ERBS) which tracked the amount of energy the 
Earth returned to space.
---------------------------------------------------------------------------
    \15\ Dr. Marburger testified before the Energy and Environment 
Subcommittee about this process on June 7, 2007. See U.S. Congress. 
House. Committee on Science and Technology. The Status Report on the 
NPOESS Weather Satellite Program: Hearing before the Subcommittee on 
Energy and Environment (Washington: Government Printing Office). Serial 
110-36. June 7, 2007.
---------------------------------------------------------------------------
    Based on this analysis, NOAA has obtained appropriations to build 
one of each sensor. The TSIS sensor was intended to fly on the first 
NPOESS satellite. The NPP ``clone'' NOAA now intends to buy, however, 
does not have sufficient space to accommodate TSIS and so the question 
of maintaining continuity of this data is again open. Earth radiation 
budget data will be collected using a copy of the existing Clouds and 
the Earth's Radiant Energy System (CERES) sensor on both NPP and JPSS-
1. The ERBS upgrade will likely fly on JPSS-2. NOAA has also decided to 
restore the full capability of the Ozone Monitoring and Profiler Suite 
on NPP, but whether it will also fly the Limb component aboard the 
follow-on satellites has not been finally determined.
    GAO was asked to evaluate the efforts NOAA and NASA expended in 
restoring the full complement of climate sensors, leading to this 
second report. GAO had recommended in 2008 that a long-term strategy 
for a climate observation network was needed. GAO states that 
recommendation has not been satisfied:

         Since June 2006, the agencies have taken steps to restore 
        selected capabilities that were removed from NPOESS in the 
        near-term; however, they do not yet have plans to restore 
        capabilities for the full length of time covered by the NPOESS 
        program . . . . Both DOD and NOAA officials reiterated their 
        commitment to look for opportunities to restore the 
        capabilities that were removed from NPOESS and GOES-R. However, 
        agency officials acknowledge that they do not have plans to 
        restore the full set of capabilities because of the complexity 
        and cost of developing new satellite programs.

    The report tells a very similar story for the instruments devoted 
to so-called ``space weather,'' a colloquial term referring to the 
effects generated in Earth's atmosphere and magnetic field by events on 
the Sun. The power of such events was demonstrated in 1998 when a solar 
geomagnetic storm affected the power grid of Quebec and caused a 
regional blackout. Similar storms today, in an era where Global 
Positioning Satellites keep offshore oil rigs from drifting out of 
position, pipelines may be damaged by currents induced as magnetic 
fields shift, and airlines shorten international flights by flying in 
the polar region (exposing passengers to charged particles from the 
``solar wind''), make it important to know what is happening on our 
nearby star. Again, however, there is no long-term strategy to provide 
for these observations.
    GAO recommends that the Office of Science and Technology Policy 
direct the completion and release of three reports, one prepared by the 
United States Group on Earth Observations and two by the Office of the 
Federal Coordinator for Meteorology. With those reports in hand, these 
interagency groups can move forward with the process of developing the 
strategies called for by GAO two years ago. Ms. Abbott's testimony does 
not indicate completion dates for the reports.

            B. Pieces of a Global Puzzle

    During the 2008 Presidential campaign, President Obama issued a 
position paper entitled ``Advancing the Frontiers of Space 
Exploration.'' It stated, in part:

         ``Understanding how Earth supports life and how human 
        activities affect its ability to do so is one of the greatest 
        challenges facing humanity . . . . Given the urgency of 
        climate-related monitoring, and considering the time required 
        to design, develop, and deploy Earth observation satellite 
        systems, the Obama administration will lean forward to deploy a 
        global climate change research and monitoring system that will 
        work for decades to come.'' \16\
---------------------------------------------------------------------------
    \16\ Advancing the Frontiers of Space Exploration, Barack Obama 
2008, August 16, 2008. Accessed at http://www.spaceref.com/news/
viewsr.htmi?cid=28880 (June 24, 2010).

    Across the globe and in space, the United States has for decades 
deployed increasingly sophisticated instruments capable of following 
environmental change and collecting data to assist in predicting such 
changes. Satellites such as NOAA and DOD's weather satellites and the 
three NASA Earth observation platforms Terra, Aura and Aqua are daily 
watching the evolution of weather, land use changes and shifting 
currents in the ocean. In 1900, thousands in Galveston, Texas died 
because there was no way to know a massive hurricane was bearing down 
on the city. In contrast, when Hurricane Ike struck Galveston in 
September 2008, authorities were able to order evacuation of the island 
two days before. Loss of lives was limited to fewer than 200. The 
difference was the ability to follow Ike almost from birth to death 
with the GOES satellites, and to predict where it was likely to go 
using data supplied by data from buoys, ships and planes.
    The strategies discussed in GAO's report are smaller pieces of the 
effort that will be needed to accomplish the President's broader goal. 
Such a network must extend across four major environments: the 
interplanetary medium (the region between the Sun and the Earth 
affected by the ``solar wind'' and other emissions), the atmosphere, 
the oceans and the land surface. Among the questions that need answers: 
What information should be collected in each environment? What 
instrument is needed to collect that information? Should that 
information be collected in space or on the ground?
    Satellites make their primary contributions collecting data at a 
global scale, but equally vital are sensor webs such as the 3000 free-
drifting floats of the Argo network, moving through the oceans where 
winds and currents drive them. The hurricane forecasters of NOAA's 
Tropical Prediction Center fiercely object if cutbacks are proposed for 
``hurricane hunter'' aircraft or their specialized ocean buoys. Since 
1996, the Department of Energy has supported the AmeriFlux network 
studying the flow of carbon dioxide, water and energy through 
ecological systems during various time scales. Satellite operators 
compare their data to those from these ground-based counterparts in 
order to be sure they understand exactly what they are seeing. It may 
sometimes produce better scientific outcomes and be a better use of 
resources to collect data on the ground instead of from orbit.
    Many agencies have invested in or are contemplating projects that 
might serve well as parts of a global observing system. GAO's report 
indicates that the coordination of the disparate efforts may not be 
occurring within OSTP, OMB or the Council on Environmental Quality. 
There are important questions which cannot be answered by one agency: 
Is a proposal duplicating observational activities or can it close a 
gap for another agency? How are these deployments coordinated? In an 
era of fiscal austerity, which networks collect information that we 
cannot afford to lose? Who assures that data from different sources is 
compatible so that hidden connections can be identified by comparing, 
for example, river flow records to estuarine production? Where do we 
store the data so that it can be found later and used to answer 
questions not even considered when it was originally collected?
    As a specific issue, consider the so-called ``research-to-
operations'' gap that regularly opens up between NASA and NOAA. Part of 
the benefit from NASA's application of its technology to looking at 
Earth is that it may open a new window on what is happening on land or 
in the air or water. In the specific case of NPOESS, the VIIRS sensor 
is an advanced version of the Moderate Resolution Imaging 
Spectroradiometer flying on NASA's Terra and Aqua satellites. Too 
often, however, technological improvement languishes because NOAA's 
satellite operators and NASA's scientists fail to communicate about the 
value in applying new techniques. This disconnection showed itself in 
examples such as NASA's decision to shut down the Tropical Rainfall 
Measuring Mission (TRMM) because it had succeeded in accomplishing its 
goal of demonstrating the technology. NASA's announcement came at the 
outset of the 2004 hurricane season, which left NOAA disconcerted when 
it turned out that TRMM data was being used in some forecasting models. 
TRMM is still operating as a result. This year has seen the 
scatterometer instrument die on NASA's QuikSCAT satellite before NOAA 
could arrange for new versions to continue collecting the wind data 
that made it possible to issue alerts to shipping about high-wind 
threats. NASA's Advanced Composition Explorer (ACE) is well past its 
design life at its position between the Sun and Earth. From where it 
sits, ACE can detect solar emissions that are heading for Earth and 
offer enough warning to protect critical systems from damage. Yet this 
``fire alarm'' may soon fail just as the Sun may be emerging from the 
``quiet period'' in its 11-year cycle and there is no replacement 
ready. One of the reports GAO recommends releasing, prepared by the 
National Space Weather Program, discussed options for replacing ACE. 
NOAA now intends to retrieve the Deep Space Climate Observatory 
(DSCOVR) from storage and outfit it to serve as ACE's successor.
    In 2005, the National Academies issued an interim report relating 
to their decadal survey of the Earth sciences. It noted that, following 
the Vision for Space Exploration articulated by President George W. 
Bush in 2004, NASA's budget request had included a guiding national 
objective ``to study the Earth system from space and develop new space-
based and related capabilities for this purpose.'' Yet the Academy 
panel went on to note that ``. . . the priority for Earth observations, 
which have direct and immediate relevance to society, appears greatly 
diminished in terms of the projected declining budgets that are 
proposed for FY 2006.'' When this Committee met for hearings on the 
NASA Earth science program, Chairman Gordon (at the time Ranking Member 
on the Committee), made a direct connection between the concerns 
expressed by the Academy panel and the lack of an agency strategy:

         . . . [T]he fact is that when the President cut $2.5 billion 
        from NASA's funding plan for fiscal year 2006 through 2009 
        relative to what he had promised just a year earlier, NASA 
        imposed 75 percent of the cut on NASA's Science and Aeronautics 
        program and only ten percent on NASA's Exploration Systems 
        program . . . .
         It is no wonder that the Earth science program is canceling 
        and delaying missions. And the problem has been compounded by 
        NASA's apparent unwillingness or inability to date to develop a 
        long-term vision for Earth science and application programs.
         So where does all of this leave us?
         Let me quote the National Research Council once again: ``Today 
        the Nation's Earth Observatory program is at risk.'' \17\
---------------------------------------------------------------------------
    \17\ U.S. Congress. House. Committee on Science. NASA Earth 
Science. Hearing before the Committee on Science (Washington: 
Government Printing Office). Serial 109-12. April 28, 2005; p. 30.

    In its final report, the Academy panel made a recommendation 
---------------------------------------------------------------------------
particular to OSTP:

         The committee is concerned that the nation's institutions 
        involved in civil space (including NASA, NOAA, and USGS) are 
        not adequately prepared to meet society's rapidly evolving 
        Earth information needs. These institutions have 
        responsibilities that are in many cases mismatched with their 
        authorities and resources: institutional mandates are 
        inconsistent with agency charters, budgets are not well-matched 
        to emerging needs, and shared responsibilities are supported 
        inconsistently by mechanisms for cooperation. These are issues 
        whose solutions will require action at high-levels of the 
        government. Thus, the committee makes the following 
        recommendation: Recommendation: The Office of Science and 
        Technology Policy, in collaboration with the relevant agencies, 
        and in consultation with the scientific community, should 
        develop and implement a plan for achieving and sustaining 
        global Earth observations. This plan should recognize the 
        complexity of differing agency roles, responsibilities, and 
        capabilities as well as the lessons from implementation of the 
        Landsat, EOS, and NPOESS programs. [emphasis in original]

    GAO concludes with similar recommendations, calling on OSTP to 
direct the Group on Earth Observations and the National Space Weather 
Program to produce long-term strategies for observations in their 
particular disciplines.

Witnesses

Hon. Shere Abbott
Associate Director, Energy and Environment Division 
Office of Science and Technology Policy

    Ms. Abbott directed the task force established by Dr. John Holdren, 
Director of OSTP, to evaluate changes in the management of the NPOESS 
program. She will testify on the task force's recommendation to divide 
responsibility for polar weather satellite coverage so that agencies 
will meet their own requirements. Ms. Abbott will also address the 
recommendations in a second Government Accountability Office (GAO) 
report that Dr. Holdren should expedite the completion of planning 
reports for climate and space weather observations in order to advance 
the development of a national earth observation strategy.

Ms. Mary Glackin
Deputy Under Secretary for Oceans and Atmosphere
National Oceanic and Atmospheric Administration

    Polar-orbiting satellites supply vital data for the computer models 
used for weather forecasting. Success in completing and launching the 
NPOESS satellites was therefore of paramount importance to NOAA. NOAA 
has launched the last of its existing series of polar satellites and 
would therefore be the principal beneficiary of a solution to the 
persistent deadlock in the NPOESS program. Ms. Glackin is now 
supervising NOAA's transition to the follow-on Joint Polar Satellite 
System and the expanded cooperation with the National Aeronautics and 
Space Administration in developing afternoon-orbit satellite coverage.

Mr. Christopher Scolese
Associate Administrator
National Aeronautics and Space Administration

    Originally, NASA had a secondary role in the NPOESS program. With 
the changes now underway, it will adopt its more traditional role as 
technical support arm and program manager for NOAA in the new JPSS 
effort. NASA will assume management of the instrument contracts from 
the prime contractor, Northrop Grumman. The NPOESS Preparatory Program 
(NPP) satellite, which NASA funded and has managed as a testbed to 
allow early experience in operating the new NPOESS satellites, will 
instead serve as an interim operational satellite to avoid loss of data 
between NOAA's existing polar-orbiting satellites and launch of the 
first JPSS satellite. Mr. Scolese will testify regarding NASA's new 
responsibilities in the JPSS effort.

Mr. Gil Klinger, Director, Space and Intelligence Office
Assistant Secretary of Defense for Acquisition
Department of Defense

    Mr. Klinger provides oversight for all Department of Defense space 
and intelligence programs within the Office of the Under Secretary of 
Defense for Acquisition, Technology and Logistics. As the Air Force was 
responsible for managing the NPOESS acquisition, Mr. Klinger's office 
had the responsibility to approve major program decisions under the 
terms of DOD acquisition management regulations (one of the major 
aspects of the ExCom's ineffectiveness). Mr. Klinger is currently 
elaborating what changes--if any--DOD will make to its plans for polar 
weather satellite coverage in the wake of the decision to transfer 
responsibility for acquiring morning orbit satellites to DOD.

Mr. David Powner
Director, Information Technology Management Issues
Government Accountability Office

    Mr. Powner has directed GAO's team monitoring the NPOESS program 
for the Committee since 2001. GAO's report last year and Powner's 
testimony at the Subcommittee's previous hearing was central to the 
convening of the Administration's task force. Powner will testify on 
two reports completed at the request of the Committee:

        <bullet>  POLAR-ORBITING ENVIRONMENTAL SATELLITES: Agencies 
        Must Act Quickly to Address Risks That Jeopardize the 
        Continuity of Weather and Climate Data

        <bullet>  ENVIRONMENTAL SATELLITES: Strategy Needed to Sustain 
        Critical Climate and Space Weather Measurements
    Chairman Miller. Good morning. This hearing will now come 
to order. Welcome to today's hearing entitled Setting New 
Courses for Polar Weather Satellites and Earth Observations. 
This is a familiar topic to this committee and subcommittee. 
Since 2003, there have been seven hearings before the Science 
and Technology Committee or various subcommittees on the 
subject of the National Polar Orbiting Operational 
Environmental Satellite System. Mercifully there is an acronym, 
NPOESS.
    Established in 1994, the program was intended to design, 
develop, construct, and launch satellites into polar orbits so 
that the National Oceanic and Atmospheric Administration, NOAA, 
and the Department of Defense, DOD, would continue to receive 
daily data necessary for civilian and military weather 
forecasting needs.
    In the 2003 hearing the life cycle costs for NPOESS in 
March, 2003 budget was $6.1 billion, with the first of six 
satellites expected to be launched in 2009. In last year's 
hearing the life cycle cost estimate had grown to at least 14.9 
billion, was intended to purchase only four satellites with a 
first NPOESS satellite launch pushed back to 2014.
    NPOESS has continued to suffer from major performance 
problems and schedule delays for the primary imaging instrument 
and those spawned cost overruns. The program has undoubtedly 
been snake bit, but at least we thought we knew the snake that 
bit it. The real problem appeared to be that the program was 
crippled by management structure that delayed decisions at 
critical moments. The tri-agency management board proved 
incapable of making decisions and taking action when most 
needed.
    Last year's witnesses testified before the subcommittee 
that program leadership had deteriorated to the point that only 
White House intervention would assure that there would ever be 
any NPOESS satellite at all. At that hearing we were told that 
one agency should be put in charge of managing the program, 
either DOD or NOAA.
    OSTP did take responsibility for intervening to rescue the 
drifting program, but instead of putting one of those two 
agencies in charge, OSTP adopted the Solomonic solution of 
cutting the program in two. Satellites flying in orbits to 
collect early-morning observations were developed and launched 
by DOD with their newly-christened Defense Weather Satellite 
System. NOAA would do the same thing with their renamed Joint 
Polar Satellite System to collect observations in the 
afternoon. NOAA would operate all the satellites while in orbit 
and would manage the common data to receive, store, and share 
the data.
    With this decision OSTP has removed the block over which we 
had been stumbling in the last few years--the snake that 
appears to have bitten this program repeatedly--but that is not 
all that will be required to guarantee success. There was a 
reason for having a single program in the first place, and 
splitting the program in two may simply create two programs 
with the same old problems.
    There are plenty of reasons to keep attention fixed on 
these new programs. For example, even though we now have 
clarity about what agency is responsible for which mission, 
this clarity apparently comes at the cost of delay and 
confusion about which instruments will be flown on which 
satellite and when will the satellite launch.
    There is a contractor that still has continuing work for 
the old NPOESS program and subcontractors with instruments in 
various states of development. What is to be the fate of those 
work efforts, and when will those decisions be made?
    Our other discussion today grows out of the experience, our 
experience with NPOESS. Back in 2006, all the climate sensors 
being prepared to fly on NPOESS were removed. If we anticipate 
having to deal with climate change or--I am sure Dr. Broun will 
say the possibility of climate change--for decades to come, how 
can we eliminate a means for knowing how well we are doing. It 
has been clear that this decision was ill-thought through and 
would have to be reversed.
    Without these sensors or similar capabilities our ability 
to strengthen our earth observation networks as a whole will be 
compromised. We asked GAO to examine the current state of the 
strategy for gathering necessary climate data. GAO's answer is 
that we don't have one, at least not a comprehensive strategy. 
That is a subject that we hope the Administration witnesses can 
discuss today.
    We have spent almost $6 billion already on the NPOESS 
program, the original projected cost of the whole program. 
There is not a single completed satellite to show for that time 
and money. We do have, however, two signs that read, ``now 
under new management.'' I know it is the hope of everyone here 
that the new management for the now two agencies, two programs 
will be the solution to what has ailed NPOESS.
    I now recognize Dr. Broun from Georgia, the Ranking Member 
of the Investigation--of this subcommittee for his opening 
statement.
    [The prepared statement of Chairman Miller follows:]

               Prepared Statement of Chairman Brad Miller

    Since 2003, there have been seven hearings before the Science and 
Technology Committee or its subcommittees on the subject of the 
National Polar-Orbiting Operational Environmental Satellite System 
(NPOESS) program. Established in 1994, the program was intended to 
design, develop, construct and launch satellites into polar orbits so 
that the National Oceanic and Atmospheric Administration (NOAA) and 
Department of Defense (DOD) would continue to receive daily data 
necessary for civilian and military weather forecasting needs.
    In the 2003 hearing, the life-cycle cost for NPOESS in the March 
2003 budget request was $6.1 billion, with the first of six satellites 
expected to be launched in 2009. In last year's hearing, the life-cycle 
cost estimate had grown to at least $14.9 billion, was intended to 
purchase only four satellites with a first NPOESS satellite launch 
pushed back to 2014.
    NPOESS suffered from major performance problems and schedule delays 
for the primary imaging instrument and these spawned cost overruns. 
However, the real problem with the program was that it was crippled by 
a management structure that delayed decisions at critical moments. The 
tri-agency management board proved incapable of making decisions and 
taking action when most needed. Last year, witnesses testified before 
this Subcommittee that program leadership had deteriorated to the point 
that only White House intervention would assure that there would ever 
be any NPOESS satellites at all. At that hearing, we were told that one 
agency should be put in charge of managing the program-either DOD or 
NOAA.
    OSTP did take responsibility for intervening to rescue this 
drifting program. However, instead of putting just one agency in 
charge, OSTP adopted the Solomanic solution of cutting the program in 
two. Satellites flying in orbits to collect early-morning observations 
would be developed and launched by DOD with their newly-christened 
Defense Weather Satellite System. NOAA would do the same with their 
renamed Joint Polar Satellite System to collect observations in the 
afternoon. NOAA would operate all the satellites while in orbit, and 
would manage the common data system to receive, store and share all 
data.
    With its decision, OSTP has removed the block over which we've been 
stumbling for the past few years. This does not guarantee success. 
There was a reason for having a single program in the first place, and 
splitting the program in two may simply create two new programs with 
the same problems. There are plenty of reasons to keep attention fixed 
on these new programs. For example, even though we now have clarity 
about what agency is responsible for which mission, this clarity comes 
at the cost of delay and confusion about which instruments will be 
flown on what satellite and when will the satellite launch? There is a 
contractor that still has continuing work for the old NPOESS program, 
and subcontractors with instruments in various states of development-
what is to be the fate of those work efforts and when will those 
decisions be made?
    Our other discussion today grows out of our experience with NPOESS. 
Back in 2006, all of the climate sensors being prepared to fly on 
NPOESS were removed. If we anticipate having to deal with climate 
change for decades to come, how can we eliminate a means of knowing how 
well we are doing? It has been clear that this decision was ill-thought 
through and would have to be reversed. Without these sensors, or 
similar capabilities, our ability to strengthen our Earth observation 
networks as a whole will be compromised. We asked GAO to examine the 
current state of the strategy for gathering necessary climate data. 
GAO's answer is that we don't have one, at least not a comprehensive 
strategy. This will be a subject that we hope the administration 
witnesses can shed some light upon.
    We have spent almost $6 billion already on the NPOESS program. 
There is not a single completed satellite to show for the time and 
money. We do however have two signs that read, ``now under new 
management''. I know it is the hope of everyone here, that this new 
management will be the solution to what has ailed the NPOESS program.

    Mr. Broun. Thank you, Mr. Chairman. Just for your record, 
what I questioned is that of human-induced global warming.
    Chairman Miller. Okay.
    Mr. Broun. So, anyway, thank you, Mr. Chairman. I want to 
welcome our witnesses here today at this important hearing, and 
thank you for your participation. This is the Committee's first 
hearing on the Joint Polar Satellite System but the seventh 
time we have looked into the previous program, the NPOESS 
program, National Polar Orbiting Operational and Environmental 
Satellite System.
    NPOESS was originally planned to create synergies and cost 
savings by combining the Defense Meteorological Satellite 
Program within the Department of Defense and the Polar Orbiting 
Environmental Satellite System at NOAA. Instead, the program 
doubled in cost, shrunk from six to four satellites, degraded 
its sensor capabilities, and its schedule slipped six years. 
Now, 15 years later we are back where we started.
    At last year's hearing I asked questions. How did we get 
here, and where do we go from here? My question today is where 
are we going? The Administration announced plans to restructure 
the program last winter, but as Mr. Powner points out in his 
testimony, ``Because neither agency has finalized plans for its 
acquisition, the full impact of OSTP's decision on the expected 
cost schedule and capabilities is unknown.''
    Until we receive this information we can't fully review 
this new program. While it is understandable that it will take 
time to restructure, I hope the Administration consults with 
Congress and with this Committee in particular given its 
history with the program.
    I look forward to working with the Administration and with 
the Chairman as we move forward. As I said at last year's 
hearing, every American is impacted by this program whether 
they know it or not. It is our responsibility to ensure that 
the farmers, fisherman, warfighters, and everyday commuters 
continue to receive weather and climate information, but we 
must not forget to be good stewards of the taxpayers' money and 
route out waste, inefficiency, and duplication where we can.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    [The prepared statement of Mr. Broun follows:]

           Prepared Statement of Representative Paul C. Broun

    Thank you, Mr. Chairman. I want to welcome our witnesses here today 
and thank them for participating in this important hearing. This is the 
Committee's first hearing on the Joint Polar Satellite System (JPSS), 
but the seventh time we have looked into the previous program, the 
National Polar-Orbiting Operational Environmental Satellite System 
(NPOESS).
    NPOESS was originally planned to create synergies and cost-savings 
by combining the Defense Meteorological Satellite Program (DMSP) within 
the Department of Defense (DoD) and the Polar-Orbiting Environmental 
Satellite (POES) System at the National Oceanic and Atmospheric 
Administration (NOAA). Instead, the program doubled in cost, shrunk 
from six to four satellites, degraded its sensor capabilities, and its 
schedule slipped six years. Now, 15 years later, we are back where we 
started.
    At last year's hearing I asked the questions, `how did we get 
here?' and `where do we go from here?' My question today is `where are 
we going?' The Administration announced plans to restructure the 
program last winter, but as Mr. Powner points out in his testimony 
``[b]ecause neither agency has finalized plans for its acquisition, the 
full impact of OSTP's decision on the expected cost, schedule, and 
capabilities is unknown.'' Until we receive this information, we can't 
fully review this new program. While it is understandable that it will 
take time to restructure, I hope the Administration consults with 
Congress, and this Committee in particular given its history with the 
program.
    I look forward to working with the Administration and the Chairman 
as we move forward. As I said at last year's hearing, every American is 
impacted by this program whether they know it or not. It is our 
responsibility to ensure that the farmers, fisherman, war-fighters, and 
everyday commuters continue to receive weather and climate information. 
But we must not forget to be good stewards of taxpayers' money and root 
out waste, inefficiency and duplication where we can.
    Thank you Mr. Chairman, I yield back my time.

    Chairman Miller. Thank you, Dr. Broun. I now ask unanimous 
consent with all additional opening statements submitted by 
members be included in the record.
    Without objection, so ordered.
    It is now my pleasure to introduce our witnesses. Dr. Shere 
Abbott is the Associate Director of the Energy and Environment 
Division in the Office of Science and Technology Policy. Ms. 
Abbott directed the taskforce established by Dr. John Holdren, 
Director of OSTP, to evaluate changes in the management of the 
NPOESS program.
    Ms. Mary Glackin is the Deputy Director Under Secretary for 
the National Oceanic and Atmospheric Administration, NOAA. Ms. 
Glackin supervises NOAA's transition to the follow-on Joint 
Polar Satellite System and the expanding cooperation with the 
National Aeronautics and Space Administration to develop 
afternoon orbit satellite coverage.
    Mr. Christopher Scolese is the Associate Administrator for 
the National Aeronautics and Space Administration, NASA. NASA 
will resume its traditional role of supporting NOAA in 
developing the JPSS weather satellites, and Mr. Scolese will 
testify today about the changes that will be needed to bring 
NASA into the program.
    Mr. Gil Klinger is the Director of the Space and 
Intelligence Office providing oversight for all Department of 
Defense space and intelligence programs within the Office of 
the Under Secretary of Defense for Acquisition, Technology and 
Logistics. Mr. Klinger is currently elaborating what changes, 
if any, DOD plans to make for polar weather satellite coverage 
in the wake of the decision to transfer responsibility for 
acquiring morning orbit satellites to DOD.
    And then, finally, Mr. David Powner is the Director of 
Information Technology Management System Issues at the 
Government Accountability Office, GAO. Mr. Powner has directed 
GAO's team monitoring of the NPOESS program for this committee 
since 2001. GAO's report last year and Mr. Powner's testimony 
at the subcommittee's previous hearing was central to the 
convening of the Administration's task force, and he has two 
reports to share with our subcommittee today.
    As our witnesses should know, you will have--each have five 
minutes for your spoken testimony. Your written testimony will 
be included in the record for the hearing. When you have all 
completed your spoken testimony, we'll begin--we will begin 
with questions, and each member will have five minutes to 
question the panel.
    It is the practice of the subcommittee to--because we are 
an investigations and oversight subcommittee--to receive our 
testimony under oath. Do any of you have any objection to 
taking an oath? The record should reflect that all the 
witnesses said that they had no objection to taking an oath.
    You also have the right to be represented by counsel. Do 
any of you have counsel here? The record should reflect that 
all of the witnesses indicated that they did not have counsel 
here.
    Please now stand and raise your right hand. Do you swear to 
tell the truth and nothing but the truth?
    Okay. The record should reflect that all of the witnesses 
took the oath.
    I should say for purposes of understanding the flow, there 
is a likelihood that we will be called for votes at an awkward 
time, probably in the middle of the opening statements, but we 
will go as far as we can, and we will break and come back after 
our votes.
    So let us now begin with Ms. Abbott. You are recognized for 
five minutes.

  STATEMENT OF HON. SHERBURNE B. ``SHERE'' ABBOTT, ASSOCIATE 
 DIRECTOR, ENERGY AND ENVIRONMENT DIVISION, OFFICE OF SCIENCE 
                     AND TECHNOLOGY POLICY

    Ms. Abbott. Thank you, Mr. Chairman and members of the 
subcommittee. I appreciate the opportunity to appear today to 
discuss the decision to restructure the NPOESS program and the 
Administration's efforts to improve capabilities for earth 
observations.
    As you, Mr. Chairman, noted, the NPOESS program was created 
16 years ago to combine civil and military operational weather 
satellite capabilities that would provide global weather 
coverage, storm tracking, and climate monitoring requirements.
    The tri-agency construct of the NPOESS program was intended 
to integrate the talent, technology, and resources of the 
agencies into a single, converged, operational system. DOD was 
responsible for major program acquisitions and contract 
administration, NOAA was responsible for satellite operations, 
and NASA was responsible for developing new technologies.
    In spite of this vision of coordination and efficiency and 
in spite of multiple attempts to improve its execution, the 
program has consistently been behind schedule, over budget, and 
underperforming. At the request of Dr. Holdren, Assistant to 
the President for Science and Technology, I convened an 
Executive Office of the President taskforce on this matter 
starting in August, 2009, with participation from the Office of 
Management and Budget and the National Security Council.
    Working closely with the three agencies, the taskforce 
performed a thorough analysis of the program, its content, cost 
projections, budgeting, acquisition issues, and related 
management options. The taskforce found that the major 
challenge of NPOESS was its structure, jointly funding and 
executing common ground on a single program with a single, 
common platform and a uniform set of instruments.
    This is because the three agencies of different technical 
objectives, acquisition procedures, engineering and management 
philosophies, risk tolerance, and approaches to managing budget 
adjustments. These differences led to continued developmental 
challenges, escalating costs, and increasing risks.
    In consultation with the agencies the EOP leadership 
decided to disaggregate management of the satellite programs by 
proceeding with separately managed acquisitions. The key 
elements of the restructured program will retain the 
observational requirements of the NPOESS program; however, NOAA 
and DOD will be responsible for meeting these requirements 
through their assigned orbits.
    NOAA, with NASA acting as the acquisition agent, will be 
responsible for the afternoon orbit. DOD will be responsible 
for the early morning orbit. The European Organization for 
Exploitation of Meteorological Satellites will continue to 
provide observations in the mid-morning orbit. The agencies 
will continue to partner in those areas that have been 
successful in the past, such as the shared ground system.
    The NOAA portion of the restructured program is called the 
Joint Polar Satellite System. The DOD portion will be called 
the Defense Weather Satellite System. This structure is 
codified in the sector guidelines in the National Space Policy 
released yesterday.
    The program restructure accomplishes the following goals. 
First, it reduces the risk of schedule slips and cost increases 
by clarifying acquisition authorities. Second, it allows each 
agency to manage its program within its own agency culture and 
environment. Third, it provides clear accountability, 
responsibility, and authority for each orbit. Fourth, it allows 
for greater government control over the development process. 
Fifth, it retains strategic coordination across the civil and 
defense programs, and sixth, it aligns with proven acquisition 
centers.
    I want to be clear. We are not canceling the program but 
merely restructuring the procurements to put the program on the 
pathway to success, taking maximum advantage of government 
expertise. We will be using all of the taxpayer-funded 
investments for the future satellite programs. The decision is 
supported by the long history of reviews called for by the 
Congress and the agencies as well as independent reviews of the 
program.
    Plans for continuity of a number of earth observations from 
space have been tied to NPOESS at one point or another in the 
program's history. With the NPOESS decision behind us, the 
Administration is focusing on the broader issue of the 
development of a comprehensive strategy for earth observations. 
We are working internationally through the Group On Earth 
Observations toward the development of an integrated earth 
observing system with leadership from the U.S. provided by the 
agencies through the U.S. Group on Earth Observations.
    In addition, the substantial increases in funding as part 
of the President's proposed FY 11 budget for NASA's Earth 
Sciences Program will be used to address the pressing issues 
related to the Nation's climate research and monitoring 
capabilities and climate data continuity.
    And the Administration will be drawing on the analysis of 
the USGEO as a first but very significant step in the 
development of a comprehensive strategy for earth observations.
    In conclusion, OSTP will continue to play an important role 
in coordinating interagency satellite observation policy, 
successfully restructuring the NPOESS program and ensuring 
continuity of weather and climate data has been a high priority 
for the Administration's leadership team. We will continue to 
meet regularly with NOAA, NASA, and DOD to ensure a smooth 
transition of the program to meet the nation's need for weather 
forecasting, storm tracking, and climate monitoring.
    I look forward to working with the committee as we move the 
NPOESS program down the pathway to success and as we move 
forward with a broader national strategy for earth 
observations. I will be pleased to try to answer any questions 
that you may have.
    [The prepared statement of Ms. Abbott follows:]

          Prepared Statement of Sherburne B. ``Shere'' Abbott

    Chairman Miller, Ranking Member Broun, Members of the Committee: I 
appreciate the opportunity to testify today at this important hearing. 
In what follows I will address the questions posed in the Chairman's 
letter of invitation regarding both the process and the findings that 
led to the decision to restructure the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) program, as well as 
the efforts within the Administration to improve capabilities for Earth 
observations to examine, monitor, and model our planet.

Brief History of NPOESS

    The tri-agency [National Oceanic and Atmospheric Administration 
(NOAA), the National Aeronautics and Space Administration (NASA), and 
the Department of Defense (DOD)] NPOESS program was created sixteen 
years ago by Presidential Decision Directive (PDD) to deliver 
operational weather satellites that would provide global weather 
coverage, storm tracking, and climate-monitoring requirements. All 
weather forecasts, including detection and forecasting of tropical 
storms in the Atlantic and Pacific oceans, depend on data from these 
observations. The program had been slated to operate from 2009 through 
2020, but was extended to 2024 (and then again to 2026) due to delays. 
The tri-agency construct of NPOESS was intended to integrate the 
talent, technology, and resources of the agencies, thereby ``. . . 
establishing a single, converged, operational system (that) can reduce 
duplication of efforts (and competition for resources) in meeting 
common requirements while satisfying the unique requirements of the 
civil and national security communities.'' DOD was responsible for 
major program acquisitions and contract administration (implemented 
through the Air Force); NOAA was responsible for satellite operations; 
and NASA was responsible for developing new technologies. To facilitate 
the convergence of civil and defense weather observational 
capabilities, DOD, NOAA, and NASA created an NPOESS Executive Committee 
(EXCOM), which included senior officials from the three agencies, in 
order to provide oversight for the joint effort and to help ensure that 
the program as a whole met the needs of the three agencies. An NPOESS 
Integrated Program Office (IPO) was also established to manage hardware 
development and related activities.
    In spite of this vision of coordination and efficiency, and in 
spite of multiple attempts to improve its execution, the program has 
consistently been behind schedule, over budget, and underperforming. 
The most serious of cost increases and scheduling delays occurred in 
late 2005, when projected cost overruns triggered a breach of the Nunn-
McCurdy statute, requiring DOD to recertify the program (otherwise the 
program would have been terminated). As part of this process, DOD 
worked with NOAA and NASA to restructure NPOESS in order to decrease 
costs and reduce program risk. Concluded in June 2006, this effort 
assigned highest priority to preserving continuity of operational 
weather measurements, which ultimately led to a decision to remove 
several key climate and space weather capabilities from the NPOESS 
satellites. In addition, the number of planned satellites was reduced 
from a total of six satellites (flying in three orbits) to four 
satellites (in two orbits), while relying on European weather satellite 
systems for data in the third orbit. Despite this restructuring, 
development and acquisition costs (i.e., life cycle costs) for the 
program nonetheless rose from $7B (in 2002) to approximately $12B in 
2006.
    By 2009 the official cost estimate had risen to $13.9B. Faced with 
these additional cost increases and further delays, the three agencies 
requested that a high-level Independent Review Team (IRT) examine the 
program. The team was led by A. Thomas Young, former President and 
Chief Operating Officer of Martin Marietta, and included aerospace 
experts from industry, academia, and government. The IRT concluded that 
the NPOESS program ``. . . as constructed had an extraordinarily low 
probability of success.'' (A. Thomas Young testimony to House Science 
and Technology Committee, June 17, 2009) In addition, the Government 
Accounting Office (GAO) has conducted eight reviews of the program, 
including one reported on today, all showing serious lapses in 
capabilities that, in turn, threaten the continuity of weather and 
climate data.

The EOP Analysis of the NPOESS Program and Findings

    Supporting the Nation's weather-forecasting and climate-monitoring 
capabilities is of great importance to the Administration, and we 
recognize the critical role that NPOESS was intended to play in 
providing these vital capabilities. Because of the extensive 
difficulties that this program has experienced in recent years, Dr. 
John Holdren, Assistant to the President for Science and Technology and 
Director of the Office of Science and Technology Policy (OSTP), began 
to meet with the heads of agencies soon after his confirmation last 
year in order to assess what potential changes needed to be made.
    At his request, I convened an Executive Office of the President 
(EOP) Task Force on this matter starting in August 2009, with 
participation from the Office of Management and Budget (OMB) and the 
National Security Council (NSC), as well as from the three lead 
agencies: NOAA, NASA and DOD. The goal of the Task Force was to 
determine suitable options for structuring the program for success in 
order to ensure continuity of the Nation's weather and climate 
observational needs. With close agency cooperation, the Task Force 
performed a thorough and careful analysis of a number of aspects of the 
program, including content, cost projection and budgeting, and 
acquisition issues. The Task Force also examined options for changing 
the management and governance, taking into account the recommendations 
of the IRT noted above, as well as the concerns raised by numerous 
Members of Congress.
    The EOP Task Force met regularly over a period of two months and 
assembled working groups with senior staff from the lead agencies who 
met weekly to assess the current difficulties with the program and to 
provide guidance on options for structuring the program for the 
greatest benefit for the Nation. The goals of the Task Force were to 
resolve issues in the following areas:

        1)  Aligning Priorities and Requirements. The Task Force 
        identified significant commonality among agency interests and 
        priorities, but found important differences as well (e.g., in 
        defining acceptable risk levels for data continuity and in 
        determining whether program schedules could be slipped further 
        to accommodate cost/budget constraints).

        2)  Determining the Available Options for Reducing Risk. The 
        Task Force conducted analysis of options for mitigating program 
        risks, improving the probability of success, and enhancing 
        constellation robustness in terms of both program content and 
        schedule).

        3)  Budget and Costing Methodologies. The Task Force analyzed 
        the costing methodologies and budgeting philosophies of the 
        agencies in an attempt to reach a common understanding of the 
        financial state of the program, the projected costs of options 
        under consideration, and the necessary funding reserves.

        4)  Program Management and Acquisition Issues. The Task Force 
        looked at possible improvements in program oversight and 
        governance, such as the functioning of the EXCOM, the alignment 
        of the IPO with a space acquisition center, and contractual 
        issues.

    The details of the Task Force analysis, deliberations, and findings 
are discussed below.

Cost-estimates

    The most apparent challenge of the program was the rising cost-
estimates and astounding life-cycle cost growth. The Task Force found 
disagreement among the agencies on both cost-estimating methodology and 
levels of risk tolerance, which resulted in differing agency 
conclusions on costs of the program at any given point in time. In 
addition to developing an understanding of the assumptions and outputs 
of these costing methodologies, the Task Force analyzed cost-estimates 
for various changes in management options. These options included 
possible continuation of the program under the current IPO structure, 
as well as alternatives such as moving the management function for the 
program to a single acquisition centereither the Air Force Space and 
Missile Systems Center (SMC) or the NASA Goddard Space Flight Center 
(GSFC).
    During the analysis in the fall of 2009, the Task Force concluded 
that the life-cycle cost of the program would exceed the official 2009 
estimate of $13.9B regardless of cost methodology or changes in 
management. Recent analyses conducted by external groups supported this 
finding--for example, in 2009, both the IRT and the GAO concurred with 
the agencies' assessment of cost growth and estimated that this figure 
would increase by at least $1B to $2B. The DOD estimates presented in 
October 2009 for the NPOESS program of record showed an increase of 
approximately $1B, and in November 2009, the IPO provided a revised 
cost-estimate showing an increase of approximately $2.5B over the 
official estimate. NASA had also previously performed various cost-
estimates for the NPOESS program of record, but these estimates assumed 
that the program had been conducted within NASA from the beginning, and 
thus were not directly comparable to the official cost estimates.
    The increasing cost estimates and the absence of consensus among 
the agencies on the appropriate estimate to use reflected a fundamental 
problem with the program--namely, that there were significantly 
divergent views among the agencies as to the overall requirements of 
the program. The inability of the agencies to compromise on this basic 
matter highlighted a further conclusion of the Task Force--that over 
time, the goals of the agencies associated with the program had drifted 
apart significantly. The risk of further escalating cost, on a program 
with approximately $5B invested through FY 2009 (and which had a life 
cycle cost originally estimated as $7B in 2002), was notable and 
concerning.

Qualitative Analysis

    The Task Force's examination of the management structure and 
challenges revealed that the current governance structure was the major 
impediment to program success. As described in the IRT report, and 
affirmed in other analyses (including that of the Task Force), the Tri-
agency EXCOM had not proven effective for making timely decisions and 
resolving technical challenges on this extremely complicated and 
dynamic program. Despite attempts at improved management and oversight, 
such as more frequent EXCOM meetings, deputies-level commitments and 
meetings, and reviews with the IPO, the EOP leadership did not see 
adequate gains in effectiveness resulting from this governance 
arrangement, nor did it see any possible substantial gains from 
improvement of the IPO that would move the program toward success. In 
large part, this was a failure of governance architecture. When 
presented with decisions affecting rising costs, schedule delays due to 
failed tests, required redesigns or inconclusive failure analyses, the 
EXCOM principals provided perspectives for guidance that were not in 
alignment.
    These differences in desires and expectations meant, in effect, 
that the Program Executive Officer (PEO), a NOAA employee, answered to 
three decision bodies-the EXCOM, NOAA management, and DOD--each with 
their own visions of program imperatives. Senior program leaders were 
presented with challenges, often developed exhaustively by their 
deputies and staff, reflecting different perspectives on how NPOESS 
progress was or was not satisfying agency-unique goals. The processes 
associated with making major decisions across three agencies were 
onerous and inadequate to provide timely resolution of curative 
measures, even after more than eight years of these agencies trying 
their level-best at compromise (and 16 years since the inception of the 
program). In addition, the IPO team, although dedicated to the mission, 
highly motivated, and led by a capable leadership team, was not 
structured with the right numbers of highly experienced acquisition and 
engineering personnel, despite some improvements following the 2005-06 
restructure.
    Furthermore, the Task Force found chronic problems in the contract 
management structure with few obvious solutions. For example, the prime 
contractor had continuing difficulties managing individual sensor 
projects, especially the Visible/Infrared Imager/Radiometer Suite 
(VIIRS). These sensors are among the most exquisite in the field of 
remote sensing and are challenging to develop. Although the prime 
contractor's senior leadership applied seasoned manpower to better 
manage the activities, there was no probable path to building adequate 
and timely capacity within the contractor workforce of the magnitude 
needed to effectively manage the technical challenges of the program.
    One fundamental qualitative question the Task Force addressed was 
whether merging civilian and defense weather observation requirements, 
while also adding requirements of continuity of certain climate data 
records, all onto one common platform, was the optimal or a sustainable 
approach for the long term. (Note that the original 1994 PDD did not 
specify converging to one common platform, just to one ``system.'') The 
IRT recognized that the major challenge of NPOESS was joint execution 
of the program by three agencies with different technical objectives, 
acquisition procedures, engineering and management philosophies, risk 
tolerance, and approaches to managing budget adjustments. Trying to 
find common ground on a single program (with a single common platform 
and a uniform set of instruments) proved to be an extraordinarily 
difficult task. The NPOESS program was initiated under the pretext that 
cost savings and efficiencies could be achieved through consolidation 
of military and civilian weather observation requirements; however, 
these cost savings and efficiencies have not been realized to date. The 
possibility of continued developmental challenges, escalating costs, 
and increasing risk, led the Task Force to conclude that the program 
would not be able to succeed as currently structured, and that it would 
be better to shift the NPOESS program away from the existing management 
paradigm sooner rather than later.
    Thus, the decision to restructure the program to split the 
responsibility of procurement was rooted in a success-based, simplified 
management scheme that addressed the systemic problems identified by 
the IRT, and subsequently confirmed by the Task Force's own analysis. 
in addition, separate procurements allowed for the civilian and 
military entities (NOAA/NASA and DOD) to develop and fly satellites 
more ideally focused for their needs, while still reducing redundancy, 
and maintaining a converged ``system'' of satellite data through a 
shared ground and data system operated by NOAA, an area of proven 
success.

External Views in Support of the Task Force's Conclusions

    The EOP Task Force's conclusion that significant changes needed to 
be made to the management structure matched the conclusions of external 
reviewers. The IRT report stated that ``the NPOESS EXCOM process is 
ineffective and must be fixed,'' and that ``the IPO [does] not have 
sufficient space systems acquisition expertise and process'' necessary 
for a program of this size. The IRT report stated that the program ``is 
being managed with cost as the most important parameter and not mission 
success.'' The IRT suggested that ``an established space acquisition 
center, such as [SMC or GSFC]'' would provide ``the institutional 
knowledge, robust infrastructure support, and a cadre of seasoned space 
system acquisition experts'' to ensure success of the program. The 
report recommended that the parties agree to a cost-estimating approach 
that is based on an 80% confidence level. (DOD currently estimates cost 
to a 50% level based on schedule that is more conservative than the 
IPO.) Finding the then-current ($13.9B) cost estimate of the program 
unrealistic, the IRT noted that while a significantly more conservative 
(e.g. 80% confidence) cost estimate would be judged by the DOD to be 
unaffordable, a program which would fit within the then-current budget 
would perform at such a reduced level that it would be unacceptable for 
NOAA and NASA. Believing that the EXCOM would be unable to resolve this 
difference, the IRT report stated that ``this will require the White 
House to define the NPOESS program that is in the national interest.''
    These views were not just held by the IRT. The final conference 
report for the FY 2010 Commerce Justice and Science (CJS) 
Appropriations bill (House Report 111-366, to accompany H.R. 3288 or 
Public Law 111-117) stated that ``the budget request does not reflect 
the true need and the program's long-term projections for success 
remain in doubt. In fact, to date this experiment in combining 
disparate elements has been a horrendous and costly failure.'' Noting 
that ``this situation has been developing for some time and is the 
result of a dysfunctional tri-agency management approach,'' the 
conferees went on to state that ``nothing short of an immediate and 
out-of-the-box solution will do.'' The conferees stated that ``the 
program needs a cooperative solution that will take advantage of the 
strengths of the three agencies involved, sustain the integrated 
operations of the various satellites, and should not be based on 
financial projections that have proven to be consistently and abysmally 
unreliable.'' The Task Force took this and other direction of CJS 
appropriators into account when determining the best path forward.

Restructuring the NPOESS Program for Success

    EOP leadership reviewed the Task Force's analysis and, in 
consultation with the agencies, decided to restructure the process 
through which the three agencies collaborate to implement the Nation's 
polar-orbiting environmental satellite program--specifically, by 
proceeding with separately managed acquisitions. The Task Force had 
reviewed the full range of ramifications and risk mitigation to ensure 
the decision was indeed prudent. The February 1, 2010 restructuring 
decision was made by the leaders of the relevant offices in the EOP, 
specifically by the OSTP Director, the OMB Director, and the National 
Security Advisor, after an intensive interagency process involving the 
EOP Task Force and top officials and supporting staff from NASA, NOAA, 
and DOD.
    The agencies will rely upon the civil and defense establishments to 
construct, manage, and operate their respective tailored systems with 
proactive approaches to controlling cost, meeting schedule needs, and 
achieving performance goals. The key elements of the restructured 
program will retain the observational requirements of the NPOESS 
program; however, NOAA and DOD will be responsible for meeting these 
requirements through their assigned orbits:

        <bullet>  NOAA, with NASA acting as the acquisition agent, will 
        be responsible for the afternoon orbit.

        <bullet>  DOD will be responsible for the early-morning orbit.

        <bullet>  The European Organization for the Exploitation of 
        Meteorological Satellites (EUMETSAT) will continue to provide 
        observations in the mid-morning orbit.

        <bullet>  The agencies will continue to partner in those areas 
        that have been successful in the past, such as a shared ground 
        system and operation of both the early-morning and afternoon 
        orbit platforms by NOAA.

    The NOAA portion of the restructured NPOESS program is called the 
Joint Polar Satellite System (JPSS). EUMETSAT retains the name 
Meteorological Operational satellite (MetOp) for its polar-orbiting 
assets in the mid-morning orbit. The DOD program development will flow 
from established processes. Remaining DOD Defense Meteorological 
Satellite Program (DMSP) satellite capabilities provide enough time for 
DOD to study priorities and alternatives for the early-morning orbit 
program. All three agencies are still closely collaborating on aspects 
of developing a next generation polar-orbiting environmental satellite 
system.
    In summary, the restructure was driven largely by the Task Force's 
recognition of the inability of the current tri-agency governance 
structure to effectively manage the acquisition process, which 
contributed to cost growth and schedule delays. Maintaining this 
structure would likely have continued the history of schedule slips and 
cost increases, jeopardizing the availability of critical weather and 
climate data.
    The program restructure, therefore, accomplishes the following 
goals:

        (1)  It reduces the risk of schedule slips and cost increases 
        by clarifying acquisition authorities through splitting the 
        procurements and making a single agency responsible for each 
        orbit.

        (2)  It allows each agency to manage its program within its own 
        agency culture and environment. The platforms for the 
        respective orbits will be developed and procured so as to 
        leverage the strengths of each agency, and also to best harness 
        the experience each agency has in continuing and improving on 
        legacy measurements.

        (3)  It provides clear accountability, responsibility, and 
        authority for each orbit, and simplifies the complicated tri-
        agency decision processes that made management and oversight 
        difficult and contributed to the prior poor performance of the 
        program. The agencies will continue to partner in those areas 
        that have been successful in the past, such as a shared ground 
        system and operation of both early-morning and afternoon 
        platforms by NOAA.

        (4)  It allows for greater government control over the 
        development process. This will enable NOAA (with NASA as its 
        acquisition agent) to have greater control over setting the 
        pace of work that is required to develop the instruments and 
        space and ground segments for the afternoon orbit.

        (5)  It retains strategic coordination across the civil and 
        defense programs. The civil and defense weather and climate 
        communities are critically dependent upon data from all the 
        orbits.

        (6)  It aligns with proven acquisition centers. As noted by the 
        IRT the program lacked timely access to technical expertise, 
        broad mentoring and development opportunities for staff, and 
        rigorous checks and balances of engineering and program 
        processes. The Administration followed the recommendation of 
        the IRT concerning alignment of the program with an established 
        acquisition center--in this case, NASA's GSFC will be NOAA's 
        acquisition agent for the afternoon orbit, and the Air Force 
        SMC will be DOD's acquisition agent for the early morning 
        orbit.

    While the NPOESS program restructure has the potential for adding 
some near-term risk to NOAA and DOD associated with a transition, the 
improved management structure of the follow-on programs will enable the 
agencies to proceed in a more effective and efficient manner in the mid 
to long term. The ability to recover lost schedule and rebuild critical 
spares will not occur overnight, and it will take some time to recover 
the robustness of the past national polar satellite missions. However, 
the ability to use different spacecraft as well as international and 
commercial platforms will provide more flexibility to achieve improved 
continuity of observation in the near term.
    I want to be clear that we are not ``cancelling'' the program, but 
merely restructuring the procurements. We will be taking maximum 
advantage of the investments made to date, by maintaining almost all of 
the hardware that has been developed for use on future platforms. The 
Administration believes it was in the best interest of U.S. taxpayers 
to restructure the NPOESS program. The decision is supported by the 
long history of reviews called for by House and Senate authorizers and 
appropriators and completed by GAO, by other reviews completed by the 
Department of Commerce Inspector General as well as senior-level 
independent reviews of the program.

A Strategy for Improving Earth Observation Capabilities

    With the NPOESS decision behind us, I believe it is essential to 
focus on the broader issue of the development of a comprehensive 
strategy for Earth observations, both from space and in situ. We live 
in an era of unprecedented stress on our planet. The combination of 
population growth, climate change, resource demand, and the continuing 
development of coastal and built areas creates unparalleled challenges 
for our health, economic, and natural resource management and 
maintaining our National security. A robust infrastructure of Earth 
observations about the Earth/ocean system and how it is changing over 
time will best support our Nation's need to inform decisions and 
policy. Additionally, in this ever-more global society, information and 
understanding derived from Earth observations are important in 
sustaining the U.S. role in global leadership.
    The myriad of Earth observations from space taken today vary widely 
in purpose and scope and are appropriately distributed among numerous 
programs under the purview of Federal agencies and other institutions 
and individuals. To a large degree, these observations have been only 
loosely coupled, coordinated, and integrated. The critical leap forward 
can only be achieved with a synergy between remotely sensed and in situ 
observations supported by robust data systems. The Administration 
recognizes that a coordinated approach is needed to sustain and build 
on the current set of Earth observations.

System of Systems Approach to Earth Observations

    Increasingly the promise of a coordinated approach to Earth 
observations is being realized, and seemingly disparate observations 
are being combined in new ways to produce benefits across multiple 
societal areas. The concept of an integrated Earth observing system is 
being articulated internationally by the Group on Earth Observations 
(GEO), with leadership from the United States provided by the agencies 
through the U.S. Group on Earth Observations (USGEO), which is a 
standing subcommittee of the National Science and Technology Council 
(NSTC), and by the EOP through OSTP. In 2005, GEO initiated a ten-year 
plan to implement a Global Earth Observation System of Systems (GEOSS) 
to coordinate observations at the international level. Eighty-one 
countries, the European Commission and over 50 international 
organizations are currently engage in this effort. As U.S. co-chair of 
GEO, I chaired the Sixth Plenary Session of GEO hosted by the United 
States here in Washington last November. I continue to work with the 
other co-chairs from the European Commission, China, and South Africa 
and the GEO Secretariat to realize the vision of the ``system of 
systems'' approach to Earth observations.
    The U.S. contribution to GEOSS is the Integrated Earth Observation 
System (IEOS). GEOSS and IEOS will facilitate the sharing and applied 
usage of global, regional, and local data from satellites, ocean buoys, 
weather stations, and other surface and airborne Earth observing 
instruments. The end result will be access to an unprecedented amount 
of environmental information, integrated into new data products 
benefiting societies and economies worldwide. USGEO is continuing to 
help ensure the coordination between our national assets and the 
emerging international architecture for Earth observations.

Status of Earth Observations in the United States

    The state of the U.S. space-based observational system in 2009 was 
largely unchanged from that of 2005, when an interim report of the 
National Research Council's committee that produced the Earth Science 
and Applications from Space ``Decadal Survey'' Report described the 
national system of environmental satellites as ``at risk of collapse.'' 
Later, in 2007, the Decadal Survey Report concluded the outlook had 
significantly worsened. The likelihood of a degradation in land imagery 
capability, affecting multiple societal needs (e.g., agriculture, 
biodiversity, climate, ecosystems, water, etc.), was almost a 
certainty. In addition, no plans had been developed to continue some of 
the valuable observations demonstrated by the NASA Earth Observing 
System (EOS) program that benefit the disaster preparedness, human 
health, climate, and water areas. Continuity of the weather observing 
system was also threatened by reductions and delays in the NPOESS 
program, and plans for climate measurements on NPOESS had been scaled 
back.
    In an overall sense, deployments of new and replacement satellites 
were not keeping pace with the termination of older systems, even 
though many existing satellites are operating well past their nominal 
lifetimes. A number of satellites built as research missions were seen 
to have ongoing societal benefit, but there were no plans for 
continuity of many of these. Given the long development times 
associated with fielding new systems, particularly satellite systems a 
sustained commitment to sensor system development is necessary to avoid 
a loss of observing capability in the next decade.
    In addition to global observations made from space, in situ 
measurements provide critical data at fine spatial and temporal scales 
and of parameters and in places not achievable from space. Our 
observational infrastructure for some in-situ measurements has been 
aging and investment in monitoring programs has declined despite 
growing demand. And, there still remains the grand challenge and 
promise of using geospatial information to link the broad coverage and 
context of our top-down remote-sensing view with the comprehensive and 
detailed measurements made in situ in order to best characterize and 
understand environmental resources.
    These realities reinforce the need to address the challenges and 
recommendations in the NRC's Decadal Survey. The Administration has 
taken decisive steps to begin reversing the trend of declining 
observational capabilities. The longer term need is the development of 
an overall national strategy for Earth observations.
    The initial step was to put the Nation's system of polar-orbiting 
operational environmental satellites on a path to success, as plans for 
continuity of a number of Earth observations from space had been tied 
to NPOESS at one point or another in the program's history. There was 
first a need to ``bound'' the capabilities of the polar-orbiting 
operational environmental satellites in order to avoid the problem of 
having large, monolithic platforms responsible for obtaining an overly 
broad set of measurements, which contributed to the fragility of the 
constellation of Earth observing satellites by having a ``single 
string'' failure mode. Once the ``bounds'' of the future platforms were 
determined, only then could the Administration focus on where the 
agencies needed ``to fill in the gaps'' in terms of continuity of key 
climate observations.
    For the near-term, the Administration has recently made a 
significant step in regards to continuity of key climate data from 
space with the substantial increases in funding as part of the FY 2011 
budget for NASA's Earth Sciences program. NASA will be using this 
augmentation to address pressing scientific and national issues 
associated with climate change and the Nation's climate research and 
monitoring capabilities. As recommended by the NRC's Decadal Survey, 
this budget returns NASA Earth Science funding to the approximate level 
that it had in FY 2000, an increase of more than 30% from recent 
levels. This funding allows for the acceleration and expansion of 
activities across the entire, coordinated Earth Science program-in the 
areas of flight missions, research, applications, and Earth Science 
mission technology development-thus advancing the balance and scope 
that have been hallmarks of NASA Earth System Science. In addition to 
building the Orbiting Carbon Observatory-2 mission for launch in 2013, 
NASA will: accelerate development of the four NRC Decadal Survey Tier 1 
missions so that they are all launched by 2017; accelerate and expand 
the Venture-class line of competed, innovative small missions; initiate 
new space missions to address continuity of high-priority climate 
observations; and bring two Decadal Survey Tier 2 missions forward to 
allow launch by 2020. Complementing the flight portfolio expansion, 
NASA will advance climate research, multiply applications using the 
full set of available (NASA and non-NASA) satellite measurements for 
direct societal benefit, and develop/mature technologies required for 
the next generation of Earth observing missions.
    As part of the U.S. Global Change Research Program's (USGCRP) role 
in coordination of the Federal climate change research portfolio across 
all the relevant agencies, the principal agency representatives to 
USGCRP reviewed NASA's draft plan for the FY 2011 augmentation, and 
these reviews will be taken into account as NASA moves forward in 
implementing the plan. I anticipate that the details relating to NASA's 
implementation of the augmentation for FY 2011 will be available in the 
coming weeks. We intend to utilize USGCRP in a similar manner in the 
future as a mechanism for ensuring broad Federal coordination on 
climate observations.

Progress Toward a National Strategy

    The Administration will be drawing on the analysis of USGEO to 
assist in the development of a comprehensive strategy for Earth 
observations, as called for in the recent GAO report Environmental 
Satellites: Strategy Needed to Sustain Critical Climate and Space 
Weather Measurements. OSTP is utilizing analysis from USGEO as input 
for reporting requirements to Congress (specifically the FY 2010 CIS 
Appropriations Conference Report language) which directed OSTP to 
develop a strategy on Earth observations. This report will be a first 
(but very significant) step in developing a larger strategy for Earth 
observations.
    Working toward a national strategy will be a priority for the 
Administration in the coming year, including the coordination of multi-
agency initiatives and budget submissions from individual Federal 
agencies. Other elements of that strategy are already in development, 
and they include articulating high-priority environmental policy 
priorities that can be directly advanced through improved Earth 
observations, identifying Earth observation-derived information 
requirements held in common across Federal agencies, evaluating 
existing and imminent gaps, preserving the continuity of existing 
critical observing systems, and recommending new systems as 
appropriate.

Concluding Remarks

    OSTP will continue to play an important role in coordinating 
interagency satellite observation policy. We must increase government 
oversight and improve the interagency partnerships central to the 
management of civilian satellite programs, which among other things are 
critical to the Nation's climate and weather forecasting. We need to 
proactively manage our programs to avert future cost and schedule 
overruns. Agencies must work together to manage the contractors 
building these satellites and demand cost and schedule accountability. 
Successfully restructuring the NPOESS program and ensuring continuity 
of weather and climate data has been a high priority for the 
Administration's leadership team. We will continue to meet regularly 
with NOAA, NASA, and DOD to ensure a smooth transition of the program 
to meet the Nation's need for weather forecasting, storm-tracking, and 
climate monitoring.
    As Associate Director for Environment for OSTP, I regard one of the 
primary functions and principle challenges of OSTP to be providing the 
leadership and needed coordination of Earth observations to ensure that 
our decision makers, our businesses, our farmers, our health care 
workers, and all our citizens have the information they need to take 
actions to improve human well-being and environmental management, 
particularly as the climate changes. Working in partnership with the 
OMB and the Congress, we aim to pull together the expertise across the 
government, drawing from each agency's distinctive capacity, to 
construct the relationships and interactions among the agencies that 
will result in a program for Earth observations that contributes to 
both our national prosperity and our national security.
    The Administration obviously will need the support of the Congress 
in moving forward with a broader strategy for Earth observations. I 
look forward to working with the Committee in this effort. I will be 
pleased to try to answer any questions the Committee may have.

              Biography for Sherburne B. ``Shere'' Abbott
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Sherburne ``Shere'' Abbott serves as the Associate Director for 
Environment of the Office of Science and Technology Policy in the 
Executive Office of the President. She manages a portfolio of S&T 
policy that ranges from energy and climate change to environmental 
quality and sustainability.
    Prior to her confirmation for this position by the Senate on April 
30, 2009, Ms. Abbott was a faculty member of the College of Liberal 
Arts at the University of Texas at Austin and served as the Director of 
the Center for Science and Practice of Sustainability in the Office of 
the Executive Vice President and Provost. Previously, Ms Abbott served 
as Chief International Officer of the American Association for the 
Advancement of Science. Prior to that appointment, over a 17 year 
period at the National Academies' National Research Council she served 
as Executive Director of the Board on Sustainable Development, the 
Director of International Organization Programs for the Office of 
International Affairs, and the Director of the Polar Research Board of 
the National Academies' National Research Council. Ms. Abbott also 
served as Assistant Scientific Program Director of the U.S. Marine 
Mammal Commission.
    Ms. Abbott earned her A.B. from Goucher College and her M.F.S. from 
Yale University's School of Forestry and Environmental Studies.

    Chairman Miller. Thank you.
    Ms. Glackin for five minutes.

 STATEMENT OF MS. MARY M. GLACKIN, DEPUTY UNDER SECRETARY FOR 
    OCEANS AND ATMOSPHERE, NATIONAL OCEANIC AND ATMOSPHERIC 
                         ADMINISTRATION

    Ms. Glackin. Chairman Miller, Ranking Member Broun, and 
distinguished members and committee of the--members and staff 
of the committee, I, too, appreciate the opportunity to testify 
in front of you today. I have been working closely with 
Secretary Locke and Under Secretary Lubchenco to ensure the 
continuity of the critical weather and satellite data that this 
nation needs.
    As has been highlighted here by the opening statements, it 
was imperative that a decision be made to address the 
acquisition challenges facing the NPOESS program. NOAA's 
follow-on program to NPOESS, the Joint Polar Satellite System, 
or JPSS, will address our requirements to provide global 
environmental data and support our mission.
    Since the Administration's decision to restructure the 
program, NOAA has taken several steps to ensure that there is 
uninterrupted, reliable weather and climate data. We have 
established a transition team, including members from the 
Department of Commerce, NOAA, and NASA with participation of 
the Department of Defense. We have made significant progress 
moving forward, including defining the organizational structure 
and beginning the process of locating and staffing the JPSS 
office.
    NOAA and NASA are assuring that we have high-performing 
teams working on the program and, in particular, leveraging and 
the placement of the civil workforce that we have at the 
Integrated Program Office today.
    Concurrent with these activities we have already--we have 
also moved forward to ensure that the NPOESS requirements for 
the afternoon orbit are appropriately translated into program-
level requirements for JPSS.
    The Integrated Program Office oversight has been reassigned 
to the Air Force Space and Missile Systems Center. We have a 
NOAA senior engineer with significant experience that's been 
assigned to work with the Center for close coordination. The 
IPO has issued guidance outlining priorities for work stoppage 
and, in particular, ensuring that we maintain the NPOESS 
Preparatory Project, NPP, cost and schedule as a top priority.
    Due to the delays in the NPOESS program, it has been 
necessary to repurpose the NPP satellite from a research 
mission to an operational satellite. All the instruments have 
been delivered for integration onto the NPP satellite, and NOAA 
is supporting NASA's efforts for launch of this satellite.
    The JPSS afternoon orbit will maintain observations that 
were planned for NPOESS in the afternoon orbit. We anticipate 
that NASA will assume management control of these sensor 
acquisitions in early fiscal year 2011. NOAA will continue the 
development and fielding of the ground system network that was 
to support NPOESS and its users. The President's budget 
provides adequate resources to support NOAA's efforts for 
completing the development of the ground system which will be 
used by both DOD and NOAA for both the morning and the 
afternoon orbits.
    As I have mentioned, continuity of data is a top priority 
and a basis for all of our considerations. After careful 
analysis of technical costs, schedule, and programmatic risks, 
with input and advice from NASA, NOAA has decided to procure a 
clone of the NPP spacecraft bus to support the JPSS-1 launch 
readiness date of 2014. We believe an NPP clone will carry the 
same suite of instruments and collect the same data as NPP, 
provides a proven solution for placing these sensors in orbit.
    This will allow us to meet our launch readiness date in 
2014, and minimize the potential of an observation gap. We are 
still working with NASA and DOD regarding the spacecraft 
decisions for the second spacecraft that will support a 2017 
launch readiness date.
    During this transition phase our ability to make final 
decisions are still coupled with the Department of Defense. Due 
to DOD's decision making timeline on the spacecraft bus, a 
level of uncertainty still exists regarding the resolution of 
the Northrop contract. Until the contract is resolved, NOAA 
will continue to be exposed to additional procurement, schedule 
and cost risks.
    I would like to briefly address the two GAO reports that 
are subject of this hearing. NOAA agrees with the 
recommendations in both reports, and I would be remiss if I 
didn't acknowledge the tremendous effort OSTP has undertaken 
over the years to address the importance of continuing critical 
space-braced climate observations.
    With respect to the GAO report released at this hearing 
addressing risks that jeopardize continuity of weather and 
climate data, we appreciate the perspectives of the GAO 
professionals in their regular reviews of the NPOESS program. 
The report provides recommendations to both the Secretaries of 
Defense and Commerce, and NOAA agrees with all recommendations 
in this report.
    In conclusion, NOAA appreciates the committee's continued 
interest in the success of the agency's satellite programs. It 
is widely acknowledged that satellites are very complicated and 
difficult systems to design, build, and operate. However, NOAA 
is acting quickly to support the February 1, 2010, decision to 
restructure this program, and I, too, would be happy to answer 
any questions you may have.
    [The prepared statement of Ms. Glackin follows:]
                 Prepared Statement of Mary M. Glackin

Introduction

    Mr. Chairman and members of the Subcommittee, I am Mary Glackin, 
the Deputy Under Secretary for Oceans and Atmosphere of the National 
Oceanic and Atmospheric Administration (NOAA) within the Department of 
Commerce (DOC). NOAA's mission is to understand and predict changes in 
Earth's environment and conserve and manage coastal and marine 
resources to meet our Nation's economic, social, and environmental 
needs. NOAA's satellite systems are tremendously important for global 
monitoring of environmental conditions in direct support of the 
agency's mission.
    Data provided by NOAA's satellites are used in its numerical 
weather prediction models, which are in turn used by National Weather 
Service forecasters to inform severe weather warnings, such as 
tornadoes and flooding, and to support the detection and spread of wild 
fires, as well as the monitoring and forecasts of hurricanes. NOAA's 
satellites are also critical to providing uninterrupted climate data 
and information to support scientific assessments and climate change 
predictions. In the Gulf of Mexico, NOAA's satellites continue to 
provide important data to support weather and oceanographic forecasts 
and oil spill response efforts. Given the importance of these satellite 
systems to NOAA's mission, it was imperative that a decision be made to 
address the acquisition challenges within the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) program. I 
appreciate the opportunity to testify about the steps NOAA has taken to 
implement its responsibilities as outlined in the decision to 
restructure the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) program.

Decision to Restructure the NPOESS Program

    On February 1, 2010, after an exhaustive review and assessment 
process, the Administration announced its decision to restructure the 
NPOESS program. This decision reaffirmed the importance of meeting the 
Nation's space-based environmental needs and revised agency 
responsibilities for implementation of observational assets and the 
sustainment of weather and climate observations from polar-orbiting 
satellites.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    NOAA was assigned responsibility for the afternoon orbit and for 
fielding of the shared ground system. The NOAA Joint Polar Satellite 
System (JPSS) will support this effort by delivering observations in 
the afternoon orbit. The Department of Defense (DOD) was assigned 
responsibility for the early morning orbit. Responsibility for the mid-
morning observations remains unchanged, and will be provided by the 
European Organisation for the Exploitation of Meteorological Satellites 
(EUMETSAT) which operates the MetOp polar-orbiting satellites. NOAA is 
also responsible for cooperative activities with international partners 
who will assist with implementation of the NPOESS restructure. This 
coordination involves close contact with EUMETSAT, the Japan Aerospace 
Exploration Agency, the Centre National d'Etudes Spatiales, and the 
Department of National Defence-Canada.
    The February 1 decision addresses three major recommendations of an 
independent review of expert satellite executives that are required for 
the program to be successful:

        <bullet>  Alignment with a proven acquisition center
           NOAA will work with its long standing partner, the National 
        Aeronautics and Space Administration (NASA), as its acquisition 
        agent for JPSS. NOAA and NASA have aligned the JPSS program 
        with the Goddard Space Flight Center, which has very 
        successfully implemented NOAA's Geostationary Operational 
        Environmental Satellite and Polar-orbiting Operational 
        Environmental Satellite programs. JPSS will benefit from the 
        technical and programmatic resources of NASA, as well as its 
        rigorous acquisition processes.

        <bullet>  Realistic cost confidence at the 80 percent level
           The NPOESS Integrated Program Office was often forced by 
        near term funding limitations into decisions that were not cost 
        efficient. A budget that realistically reflects the complexity 
        of the program affords NOAA with sufficient resources to 
        address issues that may arise during the development of JPSS 
        without adding risk to overall life cycle cost or delays to 
        launch readiness dates. A higher confidence cost estimate 
        benefits JPSS by improving NOAA's ability to manage the program 
        more effectively. The President's FY 2011 Budget requests 
        $1.060 billion to implement the JPSS program within a life 
        cycle cost of $11.9 billion.

        <bullet>  Clear lines of authority and responsibility
           The division of orbits and observations provides clear 
        accountability to a single agency responsible for each 
        acquisition. Decision authority for JPSS lies within the 
        Department of Commerce/NOAA, rather than multiple agencies 
        (DOD, DOC/NOAA, and NASA). The NOAA Program Management Council, 
        which I chair, is NOAA's management oversight mechanism for the 
        JPSS Program. Membership is comprised of Senior Executives at 
        NOAA and NASA. Similarly, decision authority for DOD 
        acquisitions will be handled within DOD.

Status of NOAA's Implementation of the February 1, 2010 Decision

    Notwithstanding the acquisition challenges that the NPOESS program 
faced, we appreciate the hard work of the many persons who have worked 
on the NPOESS program since its inception in 1994. All the agencies 
recognize that transition is a very difficult period. We believe that 
the transition process related to the February 1, 2010 decision to 
restructure the NPOESS program may take many months to be fully 
implemented, but in the long run, the decision to transition to JPSS 
will be the right one for the United States and its need for 
uninterrupted, reliable weather and climate data from space.

Transition Team

    NOAA has established a Transition Team which includes members from 
DC. NOAA, and NASA, with participation from DOD. The three agencies 
have made significant progress and are moving forward in implementing 
the transition. Concurrent with the Transition Team's activities, NOAA 
has asked the Office of the Federal Coordinator for Meteorology to 
ensure that NPOESS requirements for the afternoon orbit are 
appropriately translated into program level requirements for JPSS. This 
requirements review team also maintains membership from all three 
agencies.

NPOESS Components being Transitioned to JPSS

            Space Segment--Instruments

    NOAA's JPSS afternoon orbit will maintain the observations that 
were planned for NPOESS in the afternoon orbit. The JPSS Program will 
consist of:

        <bullet>  Visible/Infrared Imager/Radiometer Suite

        <bullet>  Cross-track Infrared Sounder

        <bullet>  Advanced Technology Microwave Sounder (ATMS)

        <bullet>  Ozone Mapping and Profiler Suite (OMPS) Nadir

        <bullet>  Advanced Data Collection System (A-DCS)

        <bullet>  Satellite-assisted Search and Rescue (SARSAT)

    We anticipate that NASA will assume management control of these 
sensor acquisitions in early FY 2011. NOAA and NASA continue to 
coordinate with DOD and the NPOESS prime contractor, Northrop Grumman 
Aerospace System (NGAS) to transition the management of these 
instrument contracts from NGAS to NASA management control.
    With respect to the other measurements that had been part of the 
NPOESS Program:

        <bullet>  DOD responsibilities under the restructure of the 
        NPOESS program defines the Defense Meteorological Satellite 
        Program (DMSP) successor sensor suite to include a Space 
        Environment Monitor package.

        <bullet>  Observations for microwave imaging and sounding are 
        planned to be provided by international partnership. NOAA has 
        initiated discussions with the Japan Aerospace Exploration 
        Agency to collaborate in its Global Change Observation Mission 
        (GCOM) missions. The GCOM's Advanced Microwave Scanning 
        Radiometer (AMSR) instrument will satisfy the Key Performance 
        Parameters that the Microwave Imager Sounder instrument would 
        have supported and, along with the JPSS ATMS, will continue the 
        legacy microwave capability in the afternoon orbit established 
        by the Polar-orbiting Operational Environmental Satellite 
        sounders and the AMSR on the NASA Earth Observing System (EOS) 
        Aqua mission. DOD's June 22, 2010 Acquisition Decision 
        Memorandum also provides for a to-be-determined microwave 
        sensing capability for the DMSP successor.

    The JPSS Program will also fly instruments that are being procured 
with funds from the NOAA Climate Sensor Program:

        <bullet>  Cloud and Earth Radiant Energy System and the follow-
        on Earth's Radiation Budget Sensor

        <bullet>  Total Solar and Spectral Irradiance Sensor (TSIS)

        <bullet>  OMPS-Limb

Space Segment--Spacecraft

    In order to ensure the lowest risk of an observational gap, NASA, 
at the request of NOAA, will procure a clone of the NPOESS Preparatory 
Project (NPP) spacecraft bus to support the JPSS-1 launch readiness 
date of 2014. NOAA believes an NPP-clone that will carry the same suite 
of instruments and collect the same data as NPP provides a proven 
solution for placing core weather and climate sensors on-orbit in the 
afternoon. This will allow us to meet a launch readiness date in 2014 
that minimizes the potential of a data gap. This decision was made 
after careful analysis and consideration of technical, cost, schedule, 
and programmatic risks, which included input and advice from NASA. NOAA 
is seeking an alternate platform to carry the TSIS instruments, and 
international partnerships to provide SARSAT, and A-DCS data since they 
will not fit on the NPP-clone. NOAA is still working with NASA and DOD 
regarding the spacecraft decision for the JPSS-2 spacecraft bus which 
will support a 2017 launch readiness date.

Ground segment

    NOAA, via the JPSS program, will continue the development and 
fielding of the ground system network that was to support NPOESS and 
its users. The JPSS ground system allows us to implement an enterprise 
solution rather than the current stovepiped ground systems.
    The President's FY 2011 budget for JPSS provides adequate resources 
to support NOAA's efforts for complete development of the ground system 
which will be used by DOD and NOAA for both the morning and afternoon 
orbits. NOAA believes the challenges that remain to field and deploy 
the ground system are manageable. There will be a period of time when 
NOAA and DOD will operate legacy satellites that are ending their 
useful life, while at the same time operating the JPSS satellites. 
NOAA's ground system network will support these legacy systems and JPSS 
satellites, and will be able to ingest and utilize all sources of data. 
Having access to data from legacy and JPSS systems at the same time 
will allow for calibration and validation activities of the new data to 
occur in a measured and deliberate manner and will support enhancement 
of numerical weather prediction models and climate models.
    The advanced observational capabilities planned for the JPSS 
satellites will provide significantly improved data that will benefit 
all users. The more accurate JPSS data will support improved weather 
forecasts and alerts, and will further our understanding of climate to 
enable informed decisions to mitigate or adapt to climate change.

Risk of Data Gaps In the Afternoon Orbit Remains

    NOAA recognizes that the risk of data gap in the afternoon orbit 
still exists and will likely continue until we have recovered lost 
schedule and rebuilt critical spares for the afternoon constellation. 
NOAA's final satellite in its Polar Operational Environmental Satellite 
series, NOAA-19, was launched in February 2009 and is the primary 
operational satellite in the afternoon orbit. NOAA also operates, at 
the request of DOD, the Air Force's Defense Meteorological Satellite 
Program satellites. By the end of the year, NOAA will have delivered to 
EUMETSAT all the NOAA instruments that will fly on the MetOp A, B, and 
C satellites. The NPP satellite, which NASA expects to launch in 2011, 
had originally been planned as a demonstration of the key NPOESS 
instruments. NOAA has included funds in the JPSS budget to support use 
of the NPP data for operational purposes and as a mitigation measure 
for a data gap in the afternoon orbit.
    I would like to now address the Government Accountability Office 
(GAO) recommendations.

GAO Recommendations for Executive Action

    There are two GAO reports that are the subject of this hearing. The 
report entitled ``Environmental Satellites: Strategy Needed to Sustain 
Critical Climate and Space Weather Measurements'' contains a number of 
recommendations directed at the Executive Office of the President's 
Office of Science Technology Policy (OSTP) to initiate high-level 
coordination of earth and space weather observations across the 
Executive Branch. NOAA agrees with the recommendations and its general 
comments were included in the report's Appendix. I would be remiss if I 
did not acknowledge the tremendous effort that OSTP has undertaken over 
the years to address the importance of continuing critical space-based 
climate observations in 2006 after the Nunn-McCurdy certification of 
the NPOESS program. Again in 2009, OSTP was a major driver of the 
review and decision-making that supported the February 1, 2010 
announcement to restructure the NPOESS program. Balancing these 
critical space-based observations is complex, and NOAA is ready to 
support OSTP in its task.
    With respect to the report that GAO is releasing at this hearing, 
``Polar-orbiting Environmental Satellites: Agencies Must Act Quickly to 
Address Risks that Jeopardize the Continuity of Weather and Climate 
Data,'' NOAA appreciates the perspective GAO professionals have 
provided during its regular reviews of the NPOESS program. NOAA has met 
with GAO and provided information and feedback on its most recent 
report.
    The draft GAO report states, ``In order to ensure that the 
transition from [the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS)] to its successor programs is efficiently and 
effectively managed, we recommend that the Secretaries of Defense and 
Commerce take the following four actions:''

         Recommendation 1: Direct their respective NPOESS follow-on 
        programs to expedite decisions on the expected cost, schedule, 
        and capabilities of their planned programs.

         NOAA agrees with this recommendation. A transition team has 
        been formed to manage the activities of transitioning the 
        NPOESS activities to the Joint Polar Satellite System (JPSS) 
        program. This team includes representatives from NOAA, NASA, 
        and DOD, who are working together to transition the NPOESS 
        activities to JPSS and DOD (U.S. Air Force) no later than 
        December 31, 2010. NOAA and NASA have signed a memorandum of 
        understanding (MOU) to begin transition activities, which will 
        focus on the cost, schedule and performance capabilities of the 
        JPSS program. As I mentioned earlier, our ability to make final 
        decisions are still coupled with DOD during this transition 
        phase. Pending the adjudication of all the NPOESS elements into 
        the successor programs, a level of uncertainty will remain 
        regarding resolution of the NGAS contract. Until the NGAS 
        contract is resolved, NOAA will continue to be exposed to 
        additional procurement, schedule and cost risk.

         Recommendation 2: Direct their respective NPOESS follow-on 
        programs to develop plans to address key transition risks, 
        including the loss of skilled staff, delays in contract 
        negotiations and setting up new program offices, loss of 
        support for the other agency's requirements, and oversight of 
        new program management.

         NOAA agrees with this recommendation. Under the NOAA NASA 
        Transition MOU, the agencies will define the system concept for 
        JPSS, set the level-1 requirements, establish the acquisition 
        plans, determine the organization and staffing needed to run 
        the program and establish a schedule and cost baseline. These 
        will all be subject to internal program management councils and 
        to external independent review teams. NOAA and NASA are working 
        to ensure that the high performing teams that worked on the 
        NPOESS program are provided an opportunity to continue with the 
        JPSS program. Placement of the civil workforce among the three 
        agencies is being finalized. The transition team is still 
        carefully assessing the skill mix and capabilities that the 
        contractor task support must possess to support the government 
        in its efforts to make JPSS program a success.

         Recommendation 3: Direct the NPOESS program office to develop 
        priorities for work stoppage to allow the activities that are 
        most important to maintaining launch schedules to continue.

         NOAA agrees with this recommendation. On March 17, 2010, DOD 
        signed the ADM, ``National Polar-orbiting Operational Satellite 
        System (NPOESS) Program Restructure'' with a revised ADM which 
        was signed on June 22, 2010 that directs the Air Force to 
        ``maximize use of the Government's investment in NPOESS, and 
        (to do so) in a manner that offers maximum opportunities for 
        collaboration with the NOAA JPSS program.'' In turn, the NPOESS 
        Program Executive Officer (PEO) provided ADM implementation 
        guidance to the NPOESS System Program Director (SPD) on March 
        26, 2010. This guidance outlines priorities for work stoppage 
        and provides transition guidance for those activities most 
        important to maintaining launch schedules. Subsequently, the 
        PEO and SPD have worked to refine the specifics of implementing 
        the ADM. The Integrated Program Office oversight has been 
        assigned to the Air Force Space and Missile Systems Center 
        (SMC) at Los Angeles AFB, California. A NOAA senior engineer 
        with significant experience in satellite acquisition has been 
        assigned to liaise with SMC to ensure close coordination. This 
        coordination complements ongoing coordination among NOAA, NASA, 
        and DOD.

         Recommendation 4: Direct NOAA and DOD officials to develop 
        timeframes for making key decisions on-or accepting the risks 
        related to-the timeliness of [NPOESS Preparatory Project's 
        (NPP's)] data.

         NOAA agrees with this recommendation. The NPP data will be 
        collected once per orbit and provided to users with timeliness 
        comparable to the data from the current Polar-orbiting 
        Operational Environmental Satellites and MetOp satellites. NOAA 
        continues its preparation to use NPP data on an operational 
        basis. NOAA is also working to increase the number of products, 
        from 19 to 54, that will be available to users within the first 
        18 months from launch. Notwithstanding the NPOESS restructure, 
        all the instruments have been delivered for integration onto 
        the NPP satellite and NOAA is supporting NASA's efforts for the 
        launch of NPP.

Conclusion

    NOAA appreciates the Committee's continued interest in the success 
of the agency's satellite programs. It is widely acknowledged that 
satellites are very complicated and difficult systems to design, build, 
and operate. However, their capabilities play a key role in NOAA's 
mission to observe and predict the Earth's environment and to provide 
critical information used in protecting life and property. NOAA is 
acting quickly to support the February 1, 2010 decision to restructure 
the NPOESS program. While significant risk exists, NOAA is confident 
that the restructured program offers greater chances for success than 
the NPOESS program provided. DOC and NOAA remain committed to pursuing 
a program that will provide continuity of data for the Nation's weather 
and climate prediction needs. I would be happy to answer any questions 
you may have.

                     Biography for Mary M. Glackin

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mary M. Glackin has been the Deputy Under Secretary for Oceans and 
Atmosphere since December 2007. In this role she is responsible for the 
day-to-day management of NOAA's national and international operations 
for oceanic and atmospheric services, research, and coastal and marine 
stewardship.
    Mary has worked at NOAA 33 years with nearly 20 years of senior 
executive level experience working in numerous NOAA line offices. She 
served as the acting Assistant Administrator for Weather Services and 
Director, National Weather Service in 2007. Before that, she was the 
Assistant Administrator for the National Oceanic and Atmospheric 
Administration's (NOAA) Office of Program Planning and Integration. 
From 1999 until 2002, she served as the Deputy Assistant Administrator 
for the National Environmental Satellite, Data, and Information Service 
of NOAA.
    From 1993 to 1999, she worked as the Program Manager for the 
Advanced Weather Interactive Processing System (AWIPS) with the 
National Weather Service (NWS), NOAA. Prior to this, Ms. Glackin was 
both a meteorologist and computer specialist in various positions 
within NOAA where she was responsible for introducing improvements into 
NWS operations by capitalizing on new technology systems and scientific 
models.
    She has twice received the Presidential Rank Award (2001 and 2009). 
She is also the receipient of the Charles Brooks Award for Outstanding 
Services to the American Meteorological Society, the NOAA Bronze Medal 
(2001), the Federal 100 Information Technology Manager Award (1999), 
the NOAA Administrator's Award (1993), and the Department of Commerce 
Silver Medal Award (1991). She is a Fellow of the American 
Meteorological Society and a member of the National Weather Association 
and the American Geophysical Union.
    Ms. Glackin has a B.S. degree from the University of Maryland.

    Chairman Miller. Thank you, Ms. Glackin.
    Mr. Scolese for five minutes.

      STATEMENT OF MR. CHRISTOPHER J. SCOLESE, ASSOCIATE 
  ADMINISTRATOR, NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

    Mr. Scolese. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to appear today to discuss NASA's 
role in and commitment to the JPSS program. This program is 
crucial to the Nation's ability to make important weather and 
climate measurements.
    NASA's role will be to manage the acquisition and 
integration of the JPSS program elements on behalf of NOAA. As 
the nation's civil space agency, NASA is fully prepared to 
support JPSS.
    NASA, and more specifically NASA's Goddard Space Flight 
Center, has over 40 years of experience developing large-scale 
operational space systems for NOAA. NASA Goddard developed the 
first operational weather satellite, TIROS-1, launched in 1961, 
and has continued to support NOAA through development and 
deployment of the Geostationary Operational Environmental 
Satellites and the Polar Orbiting Environmental Satellites.
    Further, NASA has decades of experience developing and 
supporting earth observation system research satellites. Many 
of these capabilities serve as prototypes for operational 
missions such as the Aqua satellite, launched in 2002, that 
demonstrated the capabilities intended for JPSS.
    At present NASA is developing the NPOESS Preparatory 
Project-NPP-to serve as a gap filler for the afternoon orbiting 
weather satellites. I must emphasize that NPP was originally 
intended to be a risk-reduction mission for the NPOESS-provided 
instruments, so the lifetime and data--excuse me. So the 
lifetime and data delivery requirements are not the same as for 
JPSS.
    However, the experience that NASA and Goddard have obtained 
working with the NPOESS program and its contractors on NPP have 
provided considerable knowledge of the critical systems 
required for JPSS. Therefore, the acquisition of JPSS, while a 
large task, is extremely well aligned with the existing 
capabilities and experience of Goddard.
    The JPSS program at Goddard will lead integration across 
all of the elements of JPSS to ensure delivery of the required 
data products for weather and climate. This activity includes 
spacecraft, ground systems, and instruments, including the 
critical Visible Infrared Imaging Radiometer, Cross-Track 
Infrared Sounder, Advanced Technology Microwave Sounder, and 
Ozone Mapping and Profiling Suite of instruments.
    All three agencies remain committed to a partnership that 
preserves and enhances the nation's weather and climate 
measurement capabilities. The three agencies have established a 
joint team to transition the NPOESS contracts and activities to 
the responsible agencies with as little disruption as possible, 
and we expect to have contracts or contract modifications in 
place by early fiscal year 2011.
    NASA is working with NOAA to establish a high-caliber team 
of experienced personnel to implement JPSS. The team will be a 
combination of NASA and NOAA employees with significant 
experience in acquisition, spaceflight development, and earth 
remote sensing. For NASA in particular, the JPSS program team 
will be composed of personnel from NPP as well as members from 
the successful Hubble Space Telescope Servicing Mission-4, the 
Lunar Reconnaissance Orbiter, Solar Dynamics Orbiter, and the 
recently-launched GOES-N series of geostationary satellites and 
missions.
    Last, I would like to report that all of the instruments 
for NPP have been delivered for integration with the 
spacecraft, including the NPOESS-provided VIIRS and CrIS 
instruments. With now a full complement of instruments we are 
beginning testing with the ground system and anticipate a 
launch date of late 2011.
    In summary, NASA is committed to a successful JPSS program. 
NASA will build on its long relationship supporting NOAA, and 
our experience with operational and research earth observation 
satellites, to minimize data gaps and provide the nation with 
the critical operational observations--observation capability 
it needs.
    Once again, thank you for the opportunity to testify today. 
I appreciate the support of Congress and this committee and 
would be pleased to answer any questions.
    [The prepared statement of Mr. Scolese follows:]

              Prepared Statement of Christopher J. Scolese

    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to appear today to share with the Subcommittee information 
regarding NASA's role in and commitment to NAAA's Joint Polar Satellite 
System (JPSS) Program. JPSS is crucial to the Nation's ability to make 
important weather measurements and is critical to the Nation's climate 
monitoring and climate research activities. As the Nation's Civil Space 
Agency, NASA is fully prepared to support JPSS.

Background

    On February 1, 2010, the Executive Office of the President (EOP) 
released the FY 2011 budget request, which contained a major 
restructuring of the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS) in order to put this critical program on a 
more sustainable pathway toward success. This satellite system is 
essential to meeting both civil and military weather forecasting and 
climate-monitoring requirements.
    The EOP recommended a restructured program with the agencies 
sharing common elements where that has proven successful in the past, 
and developing separate elements where conflicting perspectives and 
priorities made the tri-agency managed program unsuccessful.
    As you know, the Independent Review Team led by Tom Young made a 
number of recommendations to improve the viability of the NPOESS 
program. Specifically, Mr. Young recommended that the acquisition of 
the NPOESS system be done by an experienced spaceflight hardware 
acquisition center, such as the Department of Defense (DOD) Space and 
Missile Command or NASA's Goddard Space Flight Center (GSFC). NASA, and 
more specifically NASA's GSFC, has over 40 years of experience 
developing large-scale operational space systems for NOAA. NASA GSFC 
has developed a series of Geostationary Operational Environmental 
Satellites (GOES) and Polar Orbiting Environmental Satellites (POES) 
for weather forecasting and climate monitoring. GSFC also developed the 
Landsat series of satellites for the U.S. Geological Survey (USGS). In 
addition, NASA has extensive experience developing Earth Science 
research missions, such as those that are part of NASA's Earth 
Observing System (EOS). JPSS is very similar to EOS satellites, which 
GSFC developed and has been supporting for years. Hence, adding the 
acquisition of JPSS to the GSFC portfolio, while a large task, is 
extremely well aligned with GSFC's existing capabilities and 
experience.
    GSFC will manage the acquisition and integration of the JPSS 
program elements and has the necessary depth and technical expertise to 
do the job. GSFC has developed many successful missions for NOAA with a 
demonstrated track record of success. The Program Manager and senior 
leadership team will be a combination of GSFC and NOAA employees with 
significant spaceflight and Earth remote sensing experience. The JPSS 
program at GSFC will develop the flight mission elements for the 
afternoon orbit which includes multiple spacecraft and the Visible-
Infrared Imaging Radiometer (VIIRS), Cross-track Infrared Sounder 
(CrIS), Advanced Technology Microwave Sounder (ATMS), and Ozone Mapping 
and Profiling Suite (OMPS) instruments. NASA will also develop the 
ground system for both the NOAA and DOD systems prior to handover to 
NOAA for operations. The JPSS program will also lead integration across 
all of the elements to ensure delivery of the data products.

Steps Taken to Date to Accomplish the Transition

    All three agencies remain committed to a partnership that preserves 
and enhances the Nation's weather and climate measurement capabilities. 
NASA is working closely with DOD and NOAA to allow for a smooth 
transition. NASA's role in the restructured program will follow the 
model of the successful POES and GOES programs, where NOAA and NASA 
have a long and effective partnership. NASA program and project 
management practices have been refined over decades of experience 
developing and acquiring space systems and these practices will be 
applied to JPSS. NOAA and NASA will strive to ensure that weather and 
environmental monitoring requirements are met on the most rapid 
practicable schedule without reducing system capabilities or further 
increasing risk.
    The three agencies have established a joint team to transition the 
NPOESS contracts and activities to the responsible agencies with as 
little disruption as possible, and we expect to have contracts or 
contract modifications in place by early FY 2011.
    NASA is working with NOAA to establish a high caliber team of 
experienced personnel to implement JPSS. This team will be composed of 
personnel from the NPOESS Preparatory Project (NPP) mission, as well as 
members from the following successfully completed missions: Hubble 
Space Telescope Servicing Mission-4; Lunar Reconnaissance Orbiter; 
Solar Dynamics Orbiter; and the NOAA GOES-N-series (N-P) geostationary 
satellites. NOAA personnel from the NPOESS IPO will also fill key 
positions in the JPSS program. GSFC is also hiring additional staff to 
directly support JPSS or backfill others who assume that role. Staffing 
and supporting projects at GSFC is a continual process as missions are 
completed and new projects are initiated. As such, JPSS is in line with 
GSFC's normal operating practices. All projects at GSFC are being 
supported appropriately, and none will be deleteriously impacted by 
JPSS.
    Current cost estimates provided for JPSS are consistent with 
similar missions developed by NASA. As NASA continues to negotiate 
contracts with the instrument, ground system, and spacecraft suppliers, 
the cost confidence will mature as the contracts are put in place. The 
program cost estimates will be produced at or close to the 80 percent 
confidence level.

NPP Instruments Are Complete/Some Risk Remains

    The NPOESS Preparatory Project (NPP) was originally designed to 
provide continuity between the EOS Terra mission and the first NPOESS 
satellite in the morning orbit. The NPP mission was intended to provide 
risk reduction for the key sensors and the ground system prior to the 
first NPOESS launch and was not intended to be an operational asset. 
However, the delays in the delivery of the NPOESS system have required 
that NPP be shifted from the morning orbit to the afternoon orbit to 
minimize the potential for a data gap in the operational weather 
forecasting and environmental monitoring requirements.
    The concern about operational data gaps in weather forecasting 
drove the need for the Administration to establish the EOP task force 
on the restructuring of NPOESS. The concerns about availability of 
weather forecasting data in the afternoon orbit and for continuity of 
climate records are driving the launch of NPP as soon as practicable, 
and will drive the JPSS program to deliver JPSS-1 as soon as possible.
    The final instrument delivery for NPP occurred June 15, 2010, and 
the NPP spacecraft is on track for launch in 2011. The ground system 
development to support the NPP launch remains a major challenge, and 
NOAA and NASA are working to address this in time to support the NPP 
launch.
    Although the first flight models of these instruments will be flown 
on NPP, the remaining development of these sensors is not considered 
low risk. These are highly complex Earth remote sensing instruments 
that require a significant amount of oversight and careful testing to 
ensure success. NASA has a great deal of experience in developing these 
types of instruments on EOS, NOAA POES and GOES missions. NASA is adept 
at managing the risk and providing the needed oversight to successfully 
deliver these instruments. The lessons learned from the development, 
test, and flight of NPP will be incorporated into later flight models 
for the JPSS program.

Conclusion

    NASA and NOAA are committed to a successful JPSS program. NASA will 
work closely with NOAA in establishing the path forward for JPSS and to 
identify the right leaders. In addition, we will work closely with DOD 
to ensure that the civil and defense programs take advantage of the 
respective skills of each agency and to ensure that the common elements 
of the program meet the needs for all three agencies.
    The existence of NPOESS (now JPSS) was assumed when the National 
Academy of Sciences (NAS) developed the priorities specified in the 
recent Earth Science Decadal Survey. NASA is ready to support JPSS as a 
partner with NOAA and as a part of fulfilling the scientific goals set 
forth by the NAS. Ensuring the success of JPSS is of the highest 
importance to NASA and the Agency has the requisite expertise and 
experience to take on this task.
    Once again, thank you for the opportunity to testify today. I 
appreciate the support of this Committee and the Congress for NASA's 
programs and would be pleased to answer any questions.

                  Biography for Christopher J. Scolese

    Christopher Scolese is the Associate Administrator of the National 
Aeronautics and Space Administration, and oversees the planning, 
directing, organization and control of the day-to-day Agency technical 
and programmatic operations. He has direct oversight of the Agency's 
mission directorates, field centers, and technical mission support 
offices, and is responsible for integrating the technical and 
programmatic elements of the Agency.
    Scolese was formerly the NASA Chief Engineer. In that position he 
was responsible for the overall review and technical readiness of all 
NASA programs. NASA's Office of the Chief Engineer assures that the 
development efforts and missions operations are being planned and 
conducted on a sound engineering basis with proper controls and 
management.
    Formerly, Scolese was the Deputy Director of the Goddard Space 
Flight Center where he assisted the Director, Dr. Edward Weiler, in 
overseeing all activities. He also served as the Deputy Associate 
Administrator in the Office of Space Science at NASA Headquarters. In 
this position, he was responsible for the management, direction and 
oversight of NASA's space science flight program, mission studies, 
technology development and overall contract management of the Jet 
Propulsion Laboratory.
    Scolese also served as the EOS Program Manager and the Deputy 
Director of Flight Programs and Projects for Earth Science at the 
Goddard Space Flight Center. In this position he was responsible for 
the operation and development of all Earth Science missions assigned to 
the Goddard Space Flight Center. At Goddard, he also served as the EOS 
Terra Project Manager responsible for the development of all EOS-AM 
instruments, the CERES instrument for TRMM, the EOS-AM spacecraft, the 
interface with the Earth Science Data and Information System and the 
integration and launch of these elements. In addition, Scolese was the 
EOS Systems Manager responsible for the EOS system architecture and the 
integration of all facets of the project. During his tenure at Goddard, 
which began in 1987, he chaired the EOS Blue Team that re-scoped the 
EOS Program; he supported the EOS investigators in the development of 
the EOS payloads in the restructured EOS; and he has been responsible 
for the adoption of common data system architecture on EOS and some 
other earth orbiting spacecraft.
    Prior to his 1987 appointment at Goddard, Scolese's experience 
included work in industry and government. While a senior analyst at the 
General Research Corporation of McLean, Va., he participated in several 
SDIO programs. He was selected by Admiral Hyman Rickover to serve at 
Naval Reactors where he was associated with the development of 
instrumentation, instrument systems and multi-processor systems for the 
U.S. Navy and the DOE while working for NAVSEA.
    Scolese is the recipient of several honors including the 
Presidential Rank Award of Meritorious Executive, Goddard Outstanding 
Leadership, two NASA Outstanding Leadership Medals and the American 
Institute of Aeronautics and Astronautics (AIAA) National Capital 
Section Young Engineer/Scientist of the Year award. He was recognized 
as one of the outstanding young men in America in 1986, was a member of 
college honor societies including Eta Kappa Nu and Tau Beta Pi, and was 
recipient of the 1973 Calspan Aeronautics award. He is an Associate 
Fellow of the AIAA and a member of the Institute of Electrical and 
Electronics Engineers. He also served as a member of the AIAA 
Astrodynamics Technical Committee and chaired the National Capitol 
Section Guidance Navigation and Control Technical Committee.

    Chairman Miller. Thank you. I believe we can get the 
opening testimony in. We will be called to vote during it, but 
we have 15 minutes, which really turns out to be 25 minutes. So 
at least--so we can complete the testimony. Then I suspect we 
will break. You will be at ease, and we will return to ask for 
our questions.
    Mr. Klinger for five minutes.

STATEMENT OF MR. GIL KLINGER, DIRECTOR, SPACE AND INTELLIGENCE 
OFFICE, UNDER SECRETARY OF DEFENSE FOR ACQUISITION, TECHNOLOGY, 
              AND LOGISTICS, DEPARTMENT OF DEFENSE

    Mr. Klinger. Mr. Chairman, Dr. Broun, members of the 
subcommittee, I am honored to appear before you today to 
discuss the Department of Defense's role in assuring continuity 
of the nation's environmental monitoring mission in light of 
the restructuring of National Polar Orbiting Operational 
Environmental Satellite System program.
    As the director of the Space and Intelligence Office for 
the Under Secretary of Defense for Acquisition, Technology, and 
Logistics, I am pleased to join my colleagues here at the table 
today.
    I think our presence here today reflects our collective 
commitment to continue to work together to meet our nation's 
weather needs and that is certainly the Defense Department's 
position.
    The environmental monitoring mission serves a critical role 
in day-to-day weather forecasting and provides critical support 
for nearly all defense and national security users. So I share 
your concerns about preserving continuity of environmental data 
for all users.
    In this regard I am pleased to report that the Department 
of Defense, in close coordination with our interagency 
partners, has made considerable progress in executing the 
Administration's direction to restructure NPOESS and to 
continue to pursue capabilities needed to meet the nation's 
environmental monitoring needs.
    Since receiving the EOP direction the Under Secretary of 
Defense for Acquisition, Technology, and Logistics has chaired 
three Defense Acquisition Board reviews to assess follow-on 
options and acquisition approaches to address DOD 
responsibilities under the restructure and ensure transition of 
former NPOESS elements to the appropriate acquisition agencies.
    At a minimum, the DOD program designated the Defense 
Weather Satellite System, or DWSS, will be available for launch 
in 2018, and will meet or exceed Defense Meteorological 
Satellite Program, or DMSP, legacy performance while ensuring 
mission continuity in the early morning orbit. The DOD is 
deliberately studying available options to ensure that we 
strike the right balance of cost, performance, and technical 
risks while staying within current budgetary constraints.
    To meet the on-orbit timeline required, the DOD will 
leverage technology and previous investments in the NPOESS 
program. The DWSS and JPSS programs will share a common ground 
system based on that design for NPOESS. Under the restructure, 
ground system development is a NOAA/NASA responsibility. NOAA 
will operate DOD satellites on a reimbursable basis as it does 
today for the Defense Department with respect to DMSP.
    Additionally, the Visible Infrared Imager Radiometer Suite, 
or VIIRS, and Space Environmental Monitor-NPOESS, SEM-N, are 
prominent in our plans for use on the DWSS program. The Air 
Force is also developing an implementation plan addressing the 
most appropriate microwave sensor and satellite bus to meet DOD 
requirements and the attendant procurement strategy.
    Further, the procurement strategy will seek to maximize the 
government's investment in NPOESS. It will focus on the best 
mix of costs, technical risks, and capability and, where 
applicable, support NOAA's JPSS program. We plan to finalize 
our procurement strategy not later than August 10 of this year.
    Weather observation and forecasting is greatly improved 
over the last four decades due in large part to space-based 
environmental sensing. Global, high-resolution measurements of 
atmospheric temperature, density, and humidity populate 
mathematical models for weather prediction. Our warfighters 
need accurate, time-sensitive weather data as a key enabler for 
maneuver planning, weapons employment, and intelligence 
collection. DWSS will continue to provide critical global 
environmental information to effectively employ military 
capabilities and aid in the protection of national resources.
    Thank you for your time today, and I look forward to 
answering any questions that you may have.
    [The prepared statement of Mr. Klinger follows:]

                   Prepared Statement of Gil Klinger

INTRODUCTION

    I am honored to appear before you today to address this Committee. 
I am also pleased to be joined today by my colleagues from the 
Executive Office of the President, Ms. Shere Abbott, the National 
Oceanic and Atmospheric Administration (NOAA), Ms. Mary Glackin, and 
the National Aeronautics and Space Administration (NASA), Mr. Chris 
Scolese.
    On February 1, 2010, the Executive Office of the President (EOP) 
directed the restructuring of the National Polar-orbiting Operational 
Environmental Satellite System (NPOESS) program, assigning each agency 
responsibility for their highest priority orbit. Accordingly, the 
Department of Commerce (DOC) will populate the afternoon orbit through 
the Joint Polar Satellite System (JPSS); the Department of Defense 
(DOD) will populate the early morning orbit. We will rely on 
capabilities from our European partners for the mid-morning orbit, upon 
the conclusion of the Defense Meteorological Satellite Program (DMSP) 
operations in that orbit.
    For the morning orbit, DMSP continues to provide key terrestrial 
forecasting and space environmental sensing for defense and civil uses. 
DMSP Flight 17 was launched into the early morning orbit on November 
2006 and continues to perform very well. There are two DMSP satellites 
remaining with Flight 19 and 20, and they are currently undergoing a 
Service Life Extension Program (SLEP) to refurbish, replace, and test 
components that have exceeded their shelf life and upgrade components 
which are known life-limiters. Flight 19 is scheduled to launch in 
October 2012 with Flight 20 serving as a back-up.
    Mission data requirements for environmental monitoring remain 
unchanged. Additionally, the agencies will continue to share data and 
work together where possible. The DOD, in cooperation with NOAA/NASA, 
is completing an analysis for fulfilling the morning orbit 
requirements, and the outcome will serve as the basis for the 
restructured program. While progressing on this effort, we have 
continued to work closely with the civil agency partners to ensure our 
plans will support and enable continuity of the JPSS afternoon orbit.

CURRENT STATUS

    Since receiving EOP direction, the Under Secretary of Defense for 
Acquisition, Technology, and Logistics (USD/AT&L) has chaired three 
Defense Acquisition Board (DAB) reviews to assess follow-on options and 
acquisition approaches to address DOD responsibilities under the 
restructure and ensure transition of former NPOESS elements to the 
appropriate acquisition agencies. At a minimum, the DOD program, 
designated the Defense Weather Satellite System (DWSS), will be 
available for launch in 2018, and meet or exceed DMSP legacy 
performance while ensuring mission continuity in the early morning 
orbit. The DOD is deliberately studying available options to ensure the 
DOD strikes the right balance of cost, performance, and technical risk 
while staying within current budgetary constraints (the PB 11 DOD 
NPOESS budget).
    To meet the on-orbit timeline required, the DOD will leverage 
technology and previous investments in the NPOESS program. The DWSS and 
JPSS programs will share a common ground system based on that designed 
for NPOESS. Under the restructure, ground system development is a NOAA/
NASA responsibility. NOAA will operate DOD satellites on a reimbursable 
basis, as it does today for the DMSP. Additionally, the Visible 
Infrared Imager Radiometer Suite (VIIRS) and Space Environmental 
Monitor-NPOESS (SEM-N) are prominent in our plans for use on the DWSS 
program. The Air Force is also developing an implementation plan 
addressing the most appropriate microwave sensor and satellite bus to 
meet DOD requirements, and procurement strategy. Further, the 
procurement strategy will seek to maximize the Government's investment 
in NPOESS; it will focus on the best mix of cost, technical risk, and 
capability, and where applicable, support NOAA's JPSS program. DOD 
plans to finalize its procurement strategy not later than August 10, 
2010.
    The DWSS program office will be established under the Program 
Executive Officer/Space (PEO/SP) at the Space and Missile Systems 
Center (SMC), Los Angeles Air Force Base. This location will afford the 
DOD the best opportunity to leverage our procurement expertise, 
resources and location to maximize success on this program. We have 
begun the process of staffing the program office with the requisite 
skills (program management, systems engineering, contracting, etc) to 
enable program execution. SMC is also working with NOAA/NASA management 
to transition key sensors from the NPOESS contract to support the JPSS 
in meeting its afternoon mission requirements. Our firm goal for 
completing the transition is the end of calendar year 2010.

GAO REPORTS

    I would now like to address the recent GAO reports. Regarding GAO 
report 10-456 ``Environmental Satellites: Strategy Needed to Sustain 
Critical Climate and Space Weather Measurements'', the GAO had no 
specific actions for the DOD. However, I want to ensure you that the 
DOD team will fully support OSTP efforts to consider Earth and Space 
Weather monitoring from an enterprise and systems-of-systems 
standpoint. This support includes both full sharing of environmental 
monitoring data with our civil agency partners as well as exploration 
of opportunities to have this data supplied by commercial and foreign 
sources. We look forward to continued participation in OSTP-sponsored 
activities and initiatives to ensure we, the agencies, act to satisfy 
our collective needs in a reasonable and cost-effective manner, and 
that we coordinate our investments to the benefit of the users of this 
information and the taxpayers.
    Regarding draft GAO report 10-558 ``Polar-orbiting Environmental 
Satellites: Agencies Must Act Quickly to Address Risks that Jeopardize 
the Continuity of Weather and Climate Data,'' the DOD thanks the GAO 
for their informed and expert insights and recommendations. The draft 
GAO report states, ``In order to ensure that the transition from [the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS)] to its successor programs is efficiently and effectively 
managed, we recommend that the Secretaries of Defense and Commerce take 
the following four actions:'' We concurred with the four 
recommendations, as follows:

         RECOMMENDATION 1: The GAO recommends that the Secretary of 
        Defense direct the DOD National Polar-orbiting Operational 
        Environmental Satellite System (NPOESS) follow-on program 
        expedite decisions on the expected cost, schedule, and 
        capabilities of their planned programs (p. 38/GAO Draft Report)

    We concur. The DOD agrees that expedited decisions are necessary to 
ensure FY 10 funds are applied where most needed. Decisions on the DOD 
early morning orbit program will be executed per established 
acquisition guidelines. USD(AT&L) issued Acquisition Decision 
Memorandums on March 17th, May 10th, and June 22nd 2010. The most 
recent ADM directs the Secretary of the Air Force to immediately begin 
acquisition efforts to support a 2018 launch for a DMSP successor 
program and to consider maximum use of the Government's investment in 
NPOESS, and in a manner that offers maximum opportunities for 
collaboration with the NOAA JPSS program.

         RECOMMENDATION 2: The GAO recommends that the Secretary of 
        Defense direct the DOD NPOESS follow-on program to develop 
        plans to address key transition risks, including the loss of 
        skilled staff, delays in contract negotiations and setting up a 
        new program office, loss of support for the other agency's 
        requirements, and oversight of new program management. (p. 38/
        GAO Draft Report)

    We also concur with this recommendation. The DOD is assessing 
numerous risks associated with the transition. We will ensure personnel 
for this effort have the requisite experience and skills (e.g. 
contracting, program management, systems engineering) to effectively 
manage the program. The DOD will continue to work with NOAA to ensure 
that common areas (such as the satellite control, data processing and 
dissemination capabilities) are arranged as necessary to support other 
agency needs.

         RECOMMENDATION 3: The GAO recommends that the Secretary of 
        Defense direct the NPOESS program office to develop priorities 
        for work stoppage to allow the activities that are most 
        important to maintaining launch schedules to continue. (p. 38/
        GAO Draft Report)

    We concur. On 17 March, the Under Secretary of Defense for 
Acquisition, Technology and Logistics signed the ``Acquisition Decision 
Memorandum (ADM), National Polar-orbiting Operational Satellite System 
(NPOESS) Program Restructure.'' In turn, the Acting Program Executive 
Officer for Environmental Satellites (PEO/ES) provided ADM 
implementation guidance to the NPOESS System Program Director (SPD) on 
March 26, 2010. This guidance outlines priorities for work stoppage and 
provides transition guidance for those activities most important to 
maintaining launch schedules. Subsequently, the PEO and SPD have worked 
to refine the specifics of implementing the ADM. The June 22nd ADM 
extended the transition deadline to the end of calendar year 2010 and 
plans for a decision by the Under Secretary of Defense for Acquisition, 
Technology and Logistics not later than August 10, 2010 on a) microwave 
sensing capability and performance, b) optimal bus configuration to 
host selected DOD payloads, c) recommended procurement strategy to 
provide capabilities, and where appropriate, support NOAA's need in 
filling an afternoon orbit, d) rough-order-magnitude cost estimate, and 
e) necessary staffing and organization.

         RECOMMENDATION 4: The GAO recommends that the Secretary of 
        Defense direct DOD officials to develop timeframes for making 
        key decisions on--or accepting the risks related to--the 
        timeliness of NPP's data (p. 38/GAO Draft Report)

    We concur and we have accepted the current limitations on the 
timeliness of NPP data. Further, we will continue to work with our 
agency partners to make sure all NPOESS follow-on data is made 
available in a timely a manner to support warfighter missions.

CONCLUSION

    Weather observation and forecasting has greatly improved over the 
last four decades primarily due to space-based environmental sensing. 
Global, high resolution measurements of atmospheric temperature, 
density, and humidity populate mathematic models for weather 
prediction. Our warfighters need accurate, time-sensitive weather data 
as a key enabler for maneuver planning, weapons employment, and 
intelligence collection. DWSS will continue to provide critical global 
environmental information to effectively employ military capabilities 
and aid in the protection of national resources. Thank you for your 
time today.

                       Biography for Gil Klinger

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Gil Klinger is the Director of the Space and Intelligence 
Office for the Undersecretary of Defense for Acquisition, Technology, 
and Logistics where he is responsible for acquisition oversight of all 
space and intelligence programs executed by the Department of Defense.
    Immediately prior to assuming leadership of SIO, Mr. Klinger was 
the Assistant Deputy Director of National Intelligence for Architecture 
Engineering and Integration where he led intelligence community 
activities assessing the adequacy of the Intelligence Collection 
enterprise, identified shortfalls and solutions, managed teams focused 
on specific short- and long-term issues in response to Director of 
National Intelligence taskings, and provided domain and subject matter 
expertise to the Office of the Director of National Intelligence across 
a broad range of disciplines and collection areas.
    Immediately prior to his role as Assistant Deputy Director, Mr. 
Klinger was the Director of Space Policy, National Security Council 
Staff, where he was the lead member of the Executive Office of the 
President on all space issues and the principal author of five new 
national space polices, including the first new U.S. space exploration 
vision in more than a generation.
    His previous assignments included serving as Director of Policy, 
National Reconnaissance Office; Acting Deputy Under Secretary of 
Defense (DUSD) for Space, and the position of Principal Assistant 
(DUSD/Space), within the Office of the Deputy Under Secretary of 
Defense for Acquisition and Technology, where he received the 1997 
Presidential Rank Meritorious Executive Award, one of the two highest 
awards given to civil servants within the U.S. government; Director, 
Space and Advanced Technology Strategy, also within the Office of the 
Under Secretary of Defense for Policy; and Staff Assistant Deputy 
Director for Strategic Forces Policy, Office of the Under Secretary of 
Defense for Policy, where he was awarded the Distinguished Civilian 
Service Medal, the highest award given to civil servants within the 
Department of Defense.
    Mr. Klinger began his career in government service with his 
competitive selection to the Presidential Management Internship Program 
with the Office of the Secretary of Defense.
    Mr. Klinger graduated Phi Beta Kappa and summa cum laude from the 
State University of New York at Albany with an undergraduate degree in 
European History and Political Science. He received his master's degree 
in Public Policy from the John F. Kennedy School of Government at 
Harvard University.
    Mr. Klinger has been a member of the Senior Executive Service since 
1992 and a member of the Senior Intelligence Service since 1999.

    Chairman Miller. Mr. Klinger did not use all of his time. 
Outstanding.
    Mr. Powner for five minutes.

    STATEMENT OF MR. DAVID A. POWNER, DIRECTOR, INFORMATION 
 TECHNOLOGY MANAGEMENT ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Powner. Chairman Miller, Ranking Member Broun, and 
members of the subcommittee, we appreciate the opportunity to 
testify on the disbanding of the NPOESS program and our broader 
report on the need for long-term strategy for climate and space 
weather observations.
    First, NPOESS. When the taskforce led by the White House's 
Office of Science and Technology Policy decided in February of 
this year to disband the NPOESS program and go back to separate 
satellite acquisitions for NOAA and DOD, many viewed this as 
fixing the problem. As our report being released today points 
out, we are far from fixing the problem.
    First, both NOAA and DOD's programs are not completely 
defined, nor are the detailed costs and launch schedules. 
Although, to their credit, last week both NOAA and DOD 
announced the key sensors they plan to pursue in their separate 
acquisitions.
    Transition risks are significant. These include loss of key 
staff, supporting the other agency's requirements, and 
litigation costs. Near-term budgetary challenges are also a 
major issue as the agencies are continuing work on NPOESS while 
starting their new programs.
    In addition, they are slowing work because contractor 
termination liability payments and other litigation costs are 
still unknown. Because of this we are recommending that NOAA 
and DOD expedite decisions on the capabilities of the separate 
satellite acquisitions and the associated costs and launch 
schedules, and to effectively manage the transition risks.
    In addition to the major issues--in addition, the major 
issues that led to NPOESS's failures are still relevant to the 
new programs, and neither NOAA, NASA, or DOD should lose sight 
of these. These include technical complexity. Specifically, the 
VIIRS instrument plan for the first JPSS satellite is high 
risk. Contractor and subcontractor oversight and performance 
should be a major focus area, as should rigorous program 
management.
    In addition, an executive-level oversight structure still 
needs to be defined for the new programs. Finally, the agencies 
can't repeat the past poor interagency coordination that 
plagued NPOESS. NOAA and NASA will need to work together 
effectively on the new civilian satellite acquisition.
    Failing to effectively manage these transition risks in the 
separate satellite acquisitions could result in the combined 
programs costing more than NPOESS. In addition, further launch 
delays are likely to jeopardize the continuity of weather and 
climate data. Of particular concern is keeping the 
demonstration satellite known as NPP on schedule as it is to 
replace the final operational POES that is expected to reach 
the end of its lifespan at the end of 2012. All indications are 
that NPP will slip further than the nine months indicated in 
our report.
    Turning to the larger data continuity issue. In 2006, when 
the NPOESS program was restructured, several climate and space 
weather instruments were removed to save costs, knowing that 
these could be addressed later or on other satellites. This 
complicated an already chaotic approach to our nation's long-
term environmental satellite observations. There is no overall 
strategy to ensure continuity of climate and space weather 
observations, despite the fact that for over a decade Federal 
agencies and the climate community at large have clamored for 
one.
    Interestingly a White House-sponsored interagency working 
group has worked on a short-term strategy and has even drafted 
a report that identifies and prioritizes these climate 
observations. This could form the basis for a long-term 
strategy that ensures our nation adequately monitors the 
Earth's atmosphere, oceans, land, and space environments. As we 
heard this morning from Ms. Abbott, OSTP plans to work on this 
strategy.
    In summary, Mr. Chairman, NOAA and DOD need to define and 
effective manage their separate satellite acquisitions now that 
NPOESS has been disbanded. But in the near term the transition 
risks need to be effectively managed. Once the scope of the 
respected programs are agreed to, any additional gaps in 
environmental observations will need to be addressed in the 
strategic planning efforts currently being led by OSTP.
    Mr. Chairman, this concludes my statement.
    [The prepared statement of Mr. Powner follows:]

                 Prepared Statement of David A. Powner

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                     Biography for David A. Powner

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Miller. Thank you, Mr. Powner.
    Mr. Broun is recognized for a unanimous consent request.
    Mr. Broun. Thank you, Chairman. I ask unanimous consent 
that Mr. Rohrabacher, who is a member of the full committee but 
not this subcommittee, be allowed to participate as if he is a 
member.
    Chairman Miller. I will wait longer than I usually would 
for an objection to that.
    All right. Without objection, that is so granted.
    Mr. Broun. Mr. Chairman, if I could yield for 30 seconds, I 
would like to thank Mr. Powner for y'all's hard work, and I 
particularly want to thank you for your yearly reports and all 
that you have done for this committee. Without your hard work 
and participation it would be very difficult for us to do our 
job. So thank you very much.
    I yield back, Mr. Chairman.
    Chairman Miller. All right. We now need to go vote. You all 
are at ease. We will be back.
    [Recess.]
    Chairman Miller. I will recognize myself now for five 
minutes of questions.
    I know this isn't fair, and it is a lot more complicated 
than this, that DOD had different needs from NOAA, but the 
solution of having NOAA have one satellite with the afternoon 
orbit and DOD having its own satellite for the morning orbit 
felt a little like a kindergarten teacher sending one child 
to--two children to different corners because they can't stop 
arguing.
    And we do need you all to get along. The DOD needs to get 
data from NOAA, NOAA needs to get the data from DOD, and we 
need to make sure that you all play nice in the future.
    Mr. Klinger, what plans does DOD have to work with NOAA to 
make sure they get the data that they need and to make sure 
that you get the data from NOAA that they have that you need?
    Mr. Klinger. Mr. Chairman, I think it's not just the plans 
that we have. We actually have ongoing interaction right now 
with both NOAA and NASA. Start with one point. We are going to 
continue the relationship we have had that I mentioned in my 
opening statement with respect to ground operations. The ground 
system and the on-orbit operations, the Defense Department will 
be dependent, just as it has been, on NOAA for the ground 
system and for the operations, day-to-day operations as we are 
with our current generation, the Defense Meteorological 
Satellite Program.
    But, looking forward, one of the reasons we are moving very 
deliberately within the Defense Department is to ensure that we 
do not take an action unilaterally that inadvertently places 
any of NOAA or NASA's equities, and specifically the NPP 
program, in a disadvantaged position. So everything that we are 
doing with respect to the Defense Weather Satellite System is 
measured and assessed not just through the lenses that we would 
normally use on a DOD-only satellite system, which would be 
defense and/or intelligence equities--but, in fact, we 
thoroughly ensure first within the Department that we are not 
going to do something that has -- disadvantages one of our 
civil partners, whether that's in terms of thinking through 
what we want to do in the morning orbit--but absolutely with 
respect to what changes we end up making, if any, to the 
existing contract.
    So, we--and NOAA and NASA, in my view--are inextricably 
tied together in terms of how we move forward, though--as you 
pointed out--there will be separate spacecraft programs 
provisioning the morning and afternoon orbits.
    Chairman Miller. Okay. Ms. Glackin, how about NOAA's plans 
to play nice?
    Ms. Glackin. We are very comfortable with the arrangement 
we are moving into. We have literally, again, decades worth of 
history in cooperating with the Department of Defense and 
sharing meteorological data. We work closely with the Air 
Force. I personally established a working relationship with 
General Sheridan, who is the director of satellite and missile 
command out in California that will have oversight of Defense 
Weather Satellite System, and we have been talking back and 
forth, as has Mary Kicza, my director of our satellite line 
office.
    So I think that we have this experience doing this, we have 
a lot of commonality among our users for sharing of data there. 
We work closely through the Office of Federal Coordinator for 
Meteorology as a central focus for coordinating requirements 
and things like this.
    So I am quite comfortable moving forward.
    Chairman Miller. Dr. Abbott, does OSTP plan to play a 
continuing role in assuring the necessary cooperation, 
information sharing, et cetera, between DOD and NOAA?
    Ms. Abbott. Yes, we do, because it is of great interest to 
Dr. Holdren and myself to see this decision through to an end 
point.
    And I would add that, all along, from the beginning of the 
taskforce's operations until reaching a decision, the 
communication and coordination across the agencies has been 
extraordinarily good. We've had a lot of difficult moments in 
which we have had to deal with some issues that were hard to 
decide, but in fact, the cooperation has been quite good, and 
we have been able to negotiate through a lot of challenging 
moments. And I think, at the end of the day, we've got a 
program going forward that is consistent with the visions of 
the agencies and their particular programs, and it makes some 
sense for the nation.
    Chairman Miller. My time has expired. I now recognize 
myself for a second round of questions.
    Mr. Powner, you--in your testimony in the GAO reports you 
said that there are still challenges and uncertainties in a 
polar satellite program. What is your take on the importance of 
agency cooperation and what must be done to address any issues 
there effectively?
    Mr. Powner. Well, just to reiterate, touching base on some 
of the points that were made, I agree with Ms. Glackin that 
there is decades of experience, but if you look at the NPOESS 
program, that was not a model for interagency coordination. So 
it's great that we are--Mr. Klinger is making comments that we 
are going to work together. I think the key thing moving 
forward is, if you look at the first satellites that are 
planned, the NOAA satellite, JPSS, is almost identical to NPP. 
I mean, that is the plan, and when you look at the initial plan 
for DOD, you clearly see their requirements when you look at 
the microwave sensing capabilities, the SEM instrument that Mr. 
Klinger mentioned.
    I think it will be very important as they go forward with 
the four satellites that there's a sharing of the sensors that 
will be included so that the different agencies' requirements 
are considered. That was clearly one of the transition risks 
that we mentioned in our report, that taking into consideration 
the other agencies' requirements is still vital moving forward.
    Chairman Miller. Okay. Mr. Powner, you testified that we 
still do not have a comprehensive plan, strategy for climate 
observation. What is--who is your--who is it that you think 
should be in charge of developing that comprehensive policy, 
that comprehensive plan? How should we go forward and make sure 
that we correct that deficiency?
    Mr. Powner. Well, I think there's been some initial steps 
through the Office of Science and Technology Policy. There is 
an interagency working group, and they've put together some 
initial plans that lay out the climate observations that we 
need to ensure that there is continuity. I think there is 17 
key observations that they are focused on, and the key going 
forward is that OSTP continues to exercise that leadership role 
so that we have the appropriate interagency coordination for 
continuity of all those key climate observations.
    Chairman Miller. Okay. Ms. Abbott, you, of course, heard 
the testimony earlier and know the GAO's view on this. What 
role does OSTP plan to play in making sure there is a 
comprehensive plan for climate observation?
    Ms. Abbott. So, as I said in my testimony, what--now that 
the NPOESS decision is behind us, we actually are going to 
focus attention on the follow-on to that U.S. Group on Earth 
Observations report, and to try to turn some of those 
considerations of the 17 priority areas into real priorities, 
aligned with budgets, aligned with agency cooperation and 
coordination and developing a strategy from that.
    Chairman Miller. We will take just a two-minute recess. I 
think there are members who are planning to come back--or there 
were, and I think we are going to--we need to check on their 
status. If not, we will be done, but we will be in recess for a 
couple minutes. And you all can talk among yourselves.
    [Recess.]
    Chairman Miller. I understand Mr. Bilbray is on his way, 
but I will now recognize myself for a third round of questions 
until he gets here.
    And these are questions, I think, that Mrs. Dahlkemper had 
intended to pursue had the hearing today not been disrupted.
    Undoubtedly the reason that there are so many well-behaved 
people in the room today is that there are still a lot of 
unresolved questions about contractors, and certainly Northrop 
Grumman has been waiting with bated breath for the resolution 
of some of these issues and perhaps others as well.
    GAO has criticized the program as not having made the 
transition decisions necessary. What is now--what role do you 
see for Northrop Grumman in the now two new programs, now two 
programs, and what can be done to expedite any decisions made 
with respect to Grumman?
    Ms. Glackin.
    Ms. Glackin. Well, I think that what I would comment on is 
NOAA and Department of Defense, I believe, are both very 
interested in leveraging the expertise and experience and 
investments that the government has with Northrop Grumman; 
however, we have made no final decisions in going forward at 
this point.
    Chairman Miller. Mr. Klinger.
    Mr. Klinger. I would echo what Ms. Glackin said. As I 
mentioned in my opening statement one of the things that is a 
priority to us within the Department and also to our civil--our 
agency counterparts and partners is to maximize the degree to 
which we can take advantage of the investment that we made in 
NPOESS, and that at the first order includes the expertise that 
Northrop Grumman as the prime has gained.
    In general at the moment I would just offer the following 
that the contract right now is under the purview of the Air 
Force and its contracting officer. We're still working through 
what the specific changes that will attend the restructuring 
will have and that may or may not require some renegotiation 
and changes to the contract. I don't think, as a result, it is 
appropriate for me, nor are we really ready at this point to 
provide those details.
    There is no question that, as the Air Force sorts through 
that in the run-up to the deadline of August 10, the Air Force 
will prepare and update the acquisition strategy, including the 
specific contract issues, and those will be submitted through 
our office to the Under Secretary, Dr. Carter, and then that 
will become clear.
    Chairman Miller. Okay. Mr. Powner, any observations on the 
need to--or how to expedite issues with contractors? To resolve 
those.
    Mr. Powner. Well, clearly, I think a key decision moving 
forward will be the size of the bus and the, you know, clearly 
with JPSS-1 they decided to go with an NPP-like bus, but the 
size of the bus will drive decisions. That will be a key driver 
going forward in terms of the amount of contract leverage Ms. 
Glackin mentioned.
    Chairman Miller. Okay. Despite the fact I have two minutes 
left on my questioning, I will now yield back to myself the 
balance of my time and now recognize Mr. Bilbray for five 
minutes.
    Mr. Bilbray. Thank you, Mr. Chairman.
    Let me sort of follow up and ask for sort of a 
clarification on something that is near and dear to a lot of us 
that spend a lot of time out in the water. You know, thousands 
of Americans both in the military and civilian depend on the 
EPIRB locating devices, the Emergency Satellite Communication 
Systems. And there is an assumption out there that if a 
mariner, if an aircraft goes down and that EPIRB goes off, that 
the authorities will be there in a very short period. We will 
know you are in trouble, know where you are, or whatever.
    What has happened with the search and rescue satellite-
aided tracking system, and what is going to be the impact to 
the consumer on this?
    Ms. Glackin. I would be happy to take that one. I certainly 
agree with you, sir. Search and rescue capabilities that our 
satellites provide are really a tremendous benefit to society 
and in particular to mariners and aviators.
    This type of instrument we have flown or some period of 
time. It turns out to be a highly reliable instrument, and for 
the most part lasts long after the life of other instruments on 
a spacecraft. So today, for example, in the afternoon orbit we 
have three of these that are currently running and operational.
    With our decision to go with an NPP-like clone for the 
JPSS-1, that particular instrument won't fit on that bus. 
However, we are still searching, and we will be looking at 
whether we, in fact, need to fly it because of the redundancy 
up there and on what platform we will fly that in that 
timeframe.
    So that remains an open question now, but you should not 
doubt our commitment to ensuring the continuity of that 
capability.
    Mr. Bilbray. Well, you know, I really worry about seeing 
that get bumped on this technology because, you know, we have 
got an F-18 go down, the system is being depended on for 
pilots, we require it on American Flag votes, we really 
encourage civilian mariners to carry this, and this assumption 
that somehow the United States will keep this umbrella 
protection, I have the experience just last year of losing, 
being dismasted off of Nicaragua with my family. There was the 
assumption there that if we really, really needed something, we 
could flip that switch and within a matter of hours people 
would know where we were and we were in trouble.
    My biggest concern is what is the lag time now and should 
we be telling our consumers now that, look, maybe you want to 
go to the spot system, maybe you want to invest in a private 
alternative because the Federal Government's facility is not 
going to have the coverage or the capability that we said it 
was going to have within the next couple of years.
    Ms. Glackin. Congressman Bilbray, I would like to assure 
you we will have that capability there. We are committed to 
providing that, it was part of the JPSS suite, so as we make 
decisions going forward on exactly what--how we will fly that 
instrument, we will certainly keep this committee and you 
informed about that.
    Mr. Bilbray. Now, by the--without the polar sensors which 
are really the locators, I mean, our stationaries can tell us 
that somebody is in trouble, but trying to figure out where 
they are precisely is absolutely essential on this. How do we 
make that assurance if we are not going to have that as part of 
our polar system?
    Ms. Glackin. It will be included in the JPSS system. It is 
just not going to fly on the first bus that we have announced. 
So we have more decisions to make, and we will be making them 
in the months ahead about how to fly the one climate instrument 
that isn't flying called TSIS, the Total Solar Irradiance, as 
well as search and rescue, and there is a third set of 
instruments known as user services, data collection capability.
    So all three of those announcements are yet to come.
    Mr. Bilbray. That is based on the assumption that there is 
a budget for this?
    Ms. Glackin. That is correct, and there is. The President's 
fiscal year '11 budget includes all of the resources for that.
    Mr. Bilbray. Do we have--that is a proposed budget?
    Ms. Glackin. It is a proposed budget. Yes.
    Mr. Bilbray. So, you know, we are still in this thing, and 
I hope that we all remember we are still operating with a 
proposed budget from the Executive Branch, so all of this is 
still up in the air.
    Ms. Glackin. Absolutely.
    Mr. Bilbray. And so we have got to make sure we condition 
that if we can get this thing approved, if we can go down 
there, you are showing us.
    Let me go back to this total solar, you know, sensor issue. 
It almost appears to somebody who would be a skeptic that why 
would the Federal Government be backing off on this sensor when 
we are talking about the potential climate change, whatever, 
because I think we all agree the greatest skepticism is coming 
from those who are saying that the impact of the solar flares 
and the solar impact on the temperatures is grossly 
underestimated by models or operating off that.
    To retreat from having those sensors would almost leave 
some of my colleagues, including my surfing buddy to the right 
here, to claim that there might be some cynical or conspiracy 
to make sure those--that data is not collected because it may 
show that the modeling have grossly underestimated the effect 
of solar radiation. What would you say to my colleague about 
that kind of perception?
    Ms. Glackin. I would like to assure you and the committee 
that we have not backed off from flying the sensor. We will fly 
the sensor in this timeframe. The announcement that we made to 
fly an NPP-like bus, which is a smaller bus, is driven by our 
need to avoid a gap in this afternoon orbit. It represents the 
lowest technical and schedule solution for us.
    So we are still working on our exact plans for flying these 
three sensors that do not fit on that bus, but you should not 
doubt our commitment to ensuring those will be flown.
    Mr. Bilbray. Now, look. I am going to be very frank with 
you. The American people watch what is going on in Washington 
and what is going on with the Federal Government. There are a 
lot of people making a lot for promises that affect average 
Americans' personal lives; their health, their lifestyle, their 
prosperity, and a lot people in this city are telling the 
American people trust us. We can get this done. Trust us. We 
can do the job properly.
    When we see, when the American people see the handling of 
this proposal where you have got, you know, multiple 
jurisdictions and what looks like an absolute shamble of a 
strategy and implementation, I mean, you understand why people 
really do get concerned when Washington extends its footprint, 
say we are going to manage personal lives of people better, and 
don't worry about it, and they sit there and say, look, you 
know. You have got groups like the Federal Government who for a 
decade has been trying to do electronic medical records and are 
no closer now than they were ten years ago. Or the fact that we 
are talking about our satellites, and look what you guys did 
with that. You expect me to trust you with my family's future?
    How do we tell the American people that, look, we can learn 
from our mistakes, and we can move forward? How can we say 
that--don't use this as an example of how the Federal 
Government screws up. What can I tell my constituents out of 
this experience?
    Ms. Glackin. Yeah. I think the restructure of the NPOESS 
program does three things for us. One is it really clarifies 
the acquisition responsibilities. Number two, it allowed us to 
propose a budget to the Congress that we think is adequate to 
cover what is here, and the third is it allows us to align with 
a proven acquisition center that can bring the government 
expertise to bear for the oversight of this.
    As part of that last part of it, I would like to highlight 
to this committee that NOAA and NASA will use independent 
review teams, so over and above what GAO might do on this 
program, we will use independent review teams to review our 
plans, assess our progress. We have been doing that with the 
GOES-R program, we will be doing that with the JPSS as we move 
forward.
    So we are not just allowing it to ourselves and our own 
oversight, but we are seeking independent review as well.
    Mr. Bilbray. Thank you.
    Chairman Miller. Mr. Rohrabacher is recognized for five 
minutes.
    Mr. Rohrabacher. I would like to thank my colleague for 
asking the questions in my name, of course. First of all, Mr. 
Chairman, thank you very much for holding this very significant 
hearing, and I think the witnesses have given us a lot to think 
about, and I appreciate the high caliber of witnesses that we 
have.
    I notice it said that we have gone from--NPOESS has gone 
from $7 billion in 2002, to $15 billion. Think what could we 
have done with all of that extra money that Brian was talking 
about, and I guess we could have given it to Goldman Sachs 
coalitions and things like that.
    So there has been a lot of money wasted here in Washington, 
DC. A lot of money over the last couple years, and I would hope 
that this was--let me put it this way. This was a try. They 
were trying to accomplish something, and they did not succeed 
in accomplishing what they set out to do. And I think that is 
less of a waste than some of the money that we spent in the 
last 18 months in the name of stimulus that has gone into the 
pockets of wheeler dealers on Wall Street, et cetera, et 
cetera.
    But back to this. Of--when we are talking about why this 
failed or how we couldn't reach the goal that we had in mind, 
one of those things--is one of those goals the technology we 
needed to make the climate determinations? There is a 
difference between climate and weather, and the technology for 
this project between determining what weather is going to be 
and the whole idea of climate research, was the technology 
needed for this climate research, which I consider to be a 
very, very questionable, goal in the first place, was that part 
of the failure that we have here?
    Mr. Scolese. No, sir. I don't think it was because there is 
a mission flying today that we launched several years ago 
called Aqua that is flying sensors that are--that were, if you 
will, the predecessors of the sensors that were selected for 
NPOESS, and they are doing climate and weather measurements, 
although it is a research mission, so it is not tied into the 
operational stream.
    So the technology and the--for accomplishing what NPOESS 
was going to do has been demonstrated. It is flying. One of 
those centers has been flying for over ten years now.
    Mr. Rohrabacher. But it was--so we--it would not be 
accurate to say that climate change, which some of us believe 
is not manmade and thus we believe frankly it is a phony issue, 
but that commitment to studying that and the technology needed 
to do that study was not part of the reason why we went from 7 
to 15 billion and have not been able to accomplish the mission?
    Mr. Scolese. I would not say that the technology was. No.
    Mr. Rohrabacher. Okay. Does anyone else have a comment on 
that? Okay.
    And what--how much was this? Okay. So what do we say is the 
cause that--of this debacle? Do we say it was--was there, in 
fact, technology that we couldn't develop? Did we have a 
problem with procurement problems here? Was it the launch 
systems that we know there was some problem here with which 
launch systems were going to be able to do this. Or is this 
just a lack of--in the beginning it sounds like we just--we had 
too much confidence that various bureaucracies could work 
together.
    So what was the main driver of this debacle?
    Ms. Glackin. I will take a cut at that and invite my 
colleagues to chime in here, but I think as this Committee 
heard last year when they did a hearing on this and heard from 
Tom Young, the independent review team chair, he highlighted 
several things.
    One is the overall management structure and the--because of 
the agencies' missions, responsibilities, their postures and 
all, the difficulty in being able to provide adequate 
oversight. He also highlighted to this committee that we were 
developing this satellite system in a way that neither NOAA, 
NASA, or DOD would develop one on their own, and that, in fact, 
meant that we weren't using a proven government acquisition 
center. So we weren't availing ourselves of talent that we had 
within the Federal Government to provide----
    Mr. Rohrabacher. But the bureaucracy wasn't right. I mean, 
it wasn't because it hadn't done this type of thing before, and 
it wasn't--but it wasn't the technology.
    But we have--didn't I hear Mr. Powner suggest that we are 
still--there is still some technological risk at play right 
now?
    Mr. Powner. Yeah. Mr. Rohrabacher, there is one sensor--
that is, VIIRS--which has caused some problems with some of the 
overruns that you mentioned and with JPSS-1, the first NOAA 
satellite. That's still not out of the woods.
    But I would directly answer your question and say that 
every level was at fault with NPOESS. There was issues with 
executive level oversight, with the tri-agency overseeing it. 
There were issues with program management, managing the 
program, and there were issues with contractor and 
subcontractor oversight and performance.
    So there was--almost every layer you look at there were 
issues when you looked back over the years with what went 
wrong.
    Mr. Rohrabacher. We wish all of you success in trying to 
put this back together again so that that $15 billion that has 
been invested by the taxpayers aren't just--doesn't just go to 
waste. So if we can--so thank you very much for focusing on 
this and being very frank with us today, and we will be 
following this project and hopefully get it done so that we can 
get--we can salvage something out of this effort that is of 
value to the American people.
    Thank you very much, Mr. Chairman.
    Chairman Miller. I understand Mrs. Dahlkemper is on her 
way, but--no, she is not. Okay. My new information, she will 
not be here.
    I now recognize myself for one more round of questions.
    Mr. Powner, you mentioned the VIIRS sensor as being the one 
that was most difficult. Is that for climate research, or is 
that for weather forecasting?
    Mr. Powner. I think when you look at VIIRS, it is probably 
a combination of a number of things, and clearly VIIRS is on 
NPP, the demonstration satellite that is going up, but it is 
also being built for the first NOAA satellite, and in our 
report being released today, we do mention that that satellite 
right now is viewed as high risk for that first NOAA satellite.
    Chairman Miller. Ms. Glackin, what will be the effect of a 
continuing resolution on funding for the 2011 budget year, and 
will that affect a launch date for the two new programs?
    Ms. Glackin. The President's fiscal year 2011 budget is 
critical for us being able to move forward with the JPSS 
program. So in the event of a continuing resolution I believe 
we would work through the Administration with Congress to see 
what our options are, to be able to move forward here. We are 
quite sensitive to the fact that this is proposed as a new 
program in the 2011 budget, and Congress hasn't made a 
determination on that yet. So we have been working with both 
this committee and our appropriations staffs as well in that 
regard.
    Chairman Miller. Okay. Mr. Klinger, same questions.
    Mr. Klinger. I would just echo what Ms. Glackin said, which 
is that it is imperative that we get those funds to begin the 
DWSS program so we will be doing essentially mirroring what 
NOAA does in the event of a continuing resolution, which is to 
work through the Administration and secure the release and 
funds that are appropriate.
    Chairman Miller. I like the two of you agreeing with each 
other. That is--all right.
    Ms. Abbott, do we have a comprehensive catalog of our 
existing assets for earth observations, and do you have an 
understanding of the set of observations that need still be 
obtained?
    Ms. Abbott. The USGEO report that I mentioned before that 
Mr. Powner spoke of in their report noted is the first step in 
developing such a catalog. The agencies got together and 
identified the seven--through looking through the lens of 
environmental policy requirements, what are the major 
observations that are needed to address those policy issues?
    And so we have what is close to a catalog of needs. What we 
don't have is the articulation of that catalog against a set of 
priorities and budgets. And that is the next step.
    Chairman Miller. Mr. Scolese, I understand that the new 
JPSS program will be run out of the Goddard Space Flight 
Center. How many positions, both NASA and contractor staff, do 
you expect to manage this acquisition, this new program, and 
how will those staffing levels compare to the NPOESS integrated 
program office, which was projected to have about 170 staff?
    Mr. Scolese. Well, let me take it backwards if you might. 
One of the reasons that Tom Young suggested that the program be 
put at an acquisition center isn't because of the number of 
people that are on the project but because of the number of 
people that can support the project. At Goddard or at the Air 
Force's SMC, we are procuring or building lots of satellites 
and lots of sensors and all of that technical capability with 
our engineering directorates and safety and mission assurance 
directorates and science organizations (in the case of Goddard) 
come to bear, to help that organization go off and achieve its 
goals. By having the ability to look across many projects that 
are--some ahead of where you are at, some behind where you are 
at, some using the same contractors--you can identify issues 
that an individual project that is isolated--as the IPO was--
wouldn't see.
    So the fact that it is at the Goddard Space Flight Center 
is probably the most critical element of the program because 
you bring all those resources to bear, to help the project 
succeed.
    As far as the size of the project, it would be about the 
size of the IPO, about 100 or so, civil servants and 
contractors working it, and the staffing is going to come from 
very experienced people as I mentioned in my opening statement. 
We are bringing some of the best people from our projects. The 
lead of it will be the very successful leader of the Hubble 
servicing missions. We are bringing in as their deputy the 
person who did the Solar Dynamics Observatory, who has built a 
number of satellites, and we will be bringing in people of that 
caliber--or have already brought people of that caliber--from 
NASA and NOAA and the IPO in to go off and manage this program 
and oversee it.
    Chairman Miller. I now recognize Dr. Broun for five minutes 
of questions.
    Mr. Broun. Thank you, Mr. Chairman. I think Mr. Bilbray had 
a question. Is that correct? I would yield to him. Mr. Bilbray.
    Mr. Bilbray. With the Chairman's permission.
    Question about the sensors. Are we including maintaining 
capability to be able to detect ozone and suspended 
particulates?
    Ms. Glackin. Yes, we are. We have the OMPS sensor, both the 
Nadir and the Limb, as part of JPSS-1.
    Mr. Bilbray. Okay. Mr. Chairman, just for the record, I 
know people on this Committee have chuckled about the whole 
concept, but I think that we really got to understand how 
important this aspect is of the suspended particulates and its 
affects and the ozone issue, because there have been legitimate 
concerns raised about people considering is global warming a 
factor we need to consider or not, and the argument has gone 
back and forth.
    But just to articulate how important this could be, if 
global warming is a significant issue as some have said, we 
have to totally reverse our policies on implementation of 
climate change legislation because rather than looking at 
things like coal, which should be the first operations, I know 
that makes--first operation shut down. There may be a whole 
argument to reverse that decision and have it as the last CO 
emissions shut down because there may be major short-term 
benefits there that helps, would help to mitigate.
    I just want to make sure the good science on this is out 
there, and this sensing could be a critical component. I just 
hope we keep our minds open as we develop these strategies. My 
biggest concern I seen as too many people are making 
assumptions based on 1970, concepts when there is a whole lot 
of new data and technology out there, and this data may be 
critical at getting those of us in Washington to rethink our 
entire implementation strategy and actually reversing our 
implementation strategies based on new data.
    So I am glad to hear that. I think it is critical. It will 
at least answer some questions and make sure, reassure us that 
our assumptions may be, may continue to be followed up rather 
than have them be reversed, and I will yield back to the 
gentleman.
    Mr. Broun. I thank the gentleman.
    Mr. Chairman, I have got some written questions that I will 
submit for written responses if I could get you all to do that, 
and so I will just ask one question orally today, and it is of 
Ms. Abbott.
    OSTP has stated that this is a restructuring and not a 
cancellation. How do you believe this affects the Nunn-McCurdy 
law which says that 15 percent over budget Congress has to be 
notified, 25 percent it has to be reauthorized. So how do you 
think this affects the Nunn-McCurdy law?
    Ms. Abbott. I am not an expert on the Nunn-McCurdy law, but 
I think that the restructuring that we have proposed is not 
over those limits, and I think that the--as we move forward 
with the DOD portion of this program we'll have a better sense 
of how--what the costs are going forward.
    Mr. Broun. If it does go over, is Congress going to be 
informed about this----
    Ms. Abbott. Yes.
    Mr. Broun. --and will you divide the programs or what is 
your plan regarding that?
    Mr. Klinger. Dr. Broun, if I may, since Nunn-McCurdy is 
focused mainly on DOD acquisition, perhaps I can elaborate a 
little bit on this.
    Mr. Broun. Mr. Klinger.
    Mr. Klinger. Yes. Yes, sir. From our calculus right now, 
the restructuring does not constitute a breach under the Nunn-
McCurdy statute, nor would, although our estimates are not 
final with respect to the funding profile associated with the 
Defense Weather Satellite System, we are working within the 
funds that we had previously planned to use for our share of 
NPOESS. So we believe that the DWSS as it moves forward would 
not cross any of the Nunn-McCurdy breach thresholds. But if for 
some reason there were a breach, by definition we would do the 
necessary reporting and subsequent work for recertification.
    Mr. Broun. Does this mark a rebaseline?
    Mr. Klinger. There will be a new acquisition strategy for 
the DWSS, and there will be a new acquisition program baseline 
that the Air Force will bring forward to OSD as we--as part of 
the definition of the new program. Or of the restructured DWSS.
    Mr. Broun. I look forward to hearing back from you guys 
what is going to go on with that, too.
    Mr. Klinger. Yes, sir. We will be happy to do that.
    Mr. Broun. Mr. Chairman, I yield back.
    Chairman Miller. Thank you, Dr. Broun. That ends the 
questioning of the hearing. Dr. Broun has already said that he 
has questions he will submit in writing. I may as well. Other 
members may.
    Before we bring this hearing to a close, I want to thank 
our witnesses for testifying before our subcommittee today. 
Under the rules of the committee, the record will remain open 
for two weeks for additional statements from members and for 
answers to any follow-up questions the subcommittee may have 
for the witnesses.
    The witnesses are excused, and the hearing is now 
adjourned.
    [Whereupon, at 12:10 p.m., the Subcommittee was adjourned.]


                               Appendix:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
